                                    Office of Inspector General
Semiannual Report to the Congress   U.S. Department of Transportation




                                         April 1 – September 30, 2002
  semiannual
   report to
 the congress
                 April 1–September 30, 2002




Office of the Inspector General ■   U.S. Department of Transportation
                  contents
From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 5

OIG Mission, Organization, and Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 7

Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 11

Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 16

Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 51

Charts and Tables

     OIG Actual Fiscal Year 2002 Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 7

     Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 57

     Judicial and Administrative Actions Taken . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 58

     Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 59

     Application of Investigative Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 59

     Application of Investigative Resources by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

     Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

     OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61

     OIG Reports Recommending That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61

     OIG Reports Recommending Changes for Safety, Economy, or Efficiency . . . . . . . . . . . . . . . . . . . . . . .Page 62

     Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 62

     OIG Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 63

     Application of Audit Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 64

     OIG Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 65

     Status of Unresolved Recommendations Over 6 Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 66

Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 67

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 75




                                                                                                                                                                     iii
    from the
inspector general

D       uring the past year, the Department has understandably and necessarily focused much of its attention on trans-
        portation security. With the establishment of the Department of Homeland Security — the largest reorganization
of government in over 50 years — and three major reauthorizations pending — AIR–21, TEA–21, and Amtrak, the
Department has an important opportunity to renew its focus on the management of its core safety and mobility missions.
The Department’s success will be critical to the effective functioning of transportation, which is an important economic
engine that comprises almost 11 percent of the economy’s gross domestic product.
   We are currently finalizing our report on DOT’s top management challenges, which consists of the most important
issues facing senior DOT management this fiscal year. The last two issues in the list below relate to the Transportation
Security Administration (TSA) and the U.S. Coast Guard. While currently part of the Department of Transportation, they
will both move to the Department of Homeland Security on March 1.
■ Accomplishing DOT’s core missions of safety and mobility during and after an effective transition of TSA and Coast Guard
■ Reducing fatalities and injuries on our highways, emphasizing seat-belt-law enforcement
■ Reducing the risk of aviation accidents due to operational errors and runway incursions
■ Reversing the Federal Aviation Administration’s spiraling operating costs, improving aviation system capacity, and
    reauthorizing AIR–21
■ Clamping down on fraud, obtaining better value in highway and bridge investments, and reauthorizing TEA–21
■ Determining the future of intercity passenger rail
■ Ensuring highway safety as the southern border is opened to Mexican motor carriers under NAFTA
■ Strengthening computer security and capital planning for DOT’s multibillion-dollar information technology investment
■ Continuing to improve transportation security
■ Meeting Coast Guard’s safety and security missions.
   The financial health of the airline industry is not included in our list because it is not a management issue. However,
the Department does have responsibility for monitoring the financial health of the industry, which is now a $100 billion
U.S. industry employing half a million Americans. In addition, millions of travelers and shippers depend on the nation’s
airlines for business and personal travel each year. The Department’s role takes on more significance with two major air-
lines in bankruptcy and the resulting implications for competition and service.
   This semiannual report details our accomplishments from April 1 through September 30, 2002. In it, you will find our
key recommendations and a summary of DOT actions in response to those recommendations. I would like to recognize
OIG staff for their continuing hard work. During the reporting period, we delivered 10 congressional testimonies, issued
30 audit reports with more than $330 million in financial recommendations, and achieved $33 million in fines, civil judg-
ments, and recoveries and 299 convictions as the result of our investigative work.
   Finally, the ultimate effectiveness of audits and investigations is the extent to which corrective actions are made. In that
regard, I’d like to express our appreciation to Secretary Mineta, Deputy Secretary Jackson, Members of Congress and
their staff for their consideration and responsiveness to our work.



                                                                                     Kenneth M. Mead
                                                                                     October 2002

                                                                                      f r om t h e i n s p e c t or g e n e ra l   5
                   m i s s i o n,
              o r g a n i z a t i o n,
                & contacts

T
              he Office of Inspector General for the Department of Transportation was created by
              Congress through the Inspector General Act of 1978 (Public Law 95–452). The act sets
              several goals for OIG:

■   To conduct or supervise objective audits and investigations of DOT’s programs and operations;

■   To promote economy, effectiveness, and efficiency within DOT;

■   To prevent and detect fraud, waste, and abuse in the Department’s programs;

■   To review existing and proposed laws or regulations affecting the Department and make rec-
    ommendations about them;

■   To keep the Secretary of Transportation and Congress fully informed about problems in depart-
    mental programs and operations.

   OIG is divided into two major units and five support units. The major units are the Office of
the Principal Assistant Inspector General for Auditing and Evaluation and the Office of Assistant
Inspector General for Investigations.
Each has headquarters staff and field
                                          OIG Actual Fiscal Year 2002 Budget *
staff. The support units are the Office
                                          Total: $60,174,757
of Legal, Legislative, and External
Affairs; the Office of Technical                    TASC† $1,872,000
Resource Management; the Office of                   Travel $2,170,000
                                               Rent to GSA $3,495,000
Human Resources; the Office of
Financial, Administrative, and Infor-                 Other $4,186,405
mation Management; and the Office
of Quality Assurance Reviews/Inter-
nal Affairs.

                                                                     Benefits $10,075,000




                                                             Advisory & assistance contracts
*The chart does not include $1,140,352 that OIG spent from                      $3,432,000
a supplemental for post-9–11 and border security costs.             Personnel compensation
†TASC (Transportation Administrative Service Center)                          $33,804,000
provides reimbursable services to DOT Operating
Administrations.


                                                                                               mission, organization, & contacts   7
 8
                                                                                                  Inspector General




                                                                                              Deputy Inspector General




Semiannual Report to Congress
                                  Assistant IG for                                             Principal Assistant IG for                        Legal, Legislative, & External Affairs
                                   Investigations                                               Auditing & Evaluation
                                                                                                                                             Quality Assurance Reviews & Internal Affairs
                                                                                                                                                  Technical Resource Management
                                                                                                                                                          Human Resources
                                  Deputy AIG for
                                  Investigations                                                                                         Financial, Administrative, & Information Management




                                                             Assistant IG for         Assistant IG for            Assistant IG for          Assistant IG for              Deputy AIG for
                                  Assistant IG for
                                                         Financial & Information   Highway Infrastructure      Transit, Rail Safety, &   Competition & Economic      Transportation Security &
                                  Aviation Audits
                                                            Technology Audits        & Safety Programs          Maritime Programs               Analysis                Hazardous Materials



                                     Deputy AIG for
                                Information Technology
                                  & Computer Security
                        contacts
Inspector General
Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1959

Deputy Inspector General
Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–6767

Principal Assistant Inspector General for Auditing and Evaluation
Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1992

Assistant Inspector General for Investigations
Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1967

Deputy Assistant Inspector General for Investigations
Cecelia Rosser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–8081

Legal, Legislative, and External Affairs
Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–8751

Public Affairs Officer
David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–6312

Assistant Inspector General for Aviation Audits
David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–0500

Assistant Inspector General for Financial and Information Technology Audits
John L. Meche . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1496

Deputy Assistant Inspector General for Information Technology and Computer Security . . . (Vacant)

Assistant Inspector General for Highway Infrastructure and Safety Programs
Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–0687

Assistant Inspector General for Transit, Rail Safety, and Maritime Programs
Debra S. Ritt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–5630

Assistant Inspector General for Competition and Economic Analysis
Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–9970

Deputy Assistant Inspector General for Transportation Security and Hazardous Material
Robin Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 744–0420

Director for Audit Planning, Training, and Technical Support
Sue Murrin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1453

Director of Technical Resource Management
James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1498

Director of Human Resources                                                                                                              Hotline to report fraud, waste, and abuse:
Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 493–0129         phone:    1–800–424–9071
Director of Financial, Administrative, and Information Management                                                                               fax:   202–366–7749
Jackie Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1495          e-mail:   hotline@oig.dot.gov
Director of Quality Assurance Reviews and Internal Affairs
                                                                                                                                        OIG website:   http://www.oig.dot.gov
Jerome Persh . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366–1504

                                                                                                                                        mission, organization, & contacts         9
work planned
   and in
  progress


T
         he past year has been one of significant challenge for the Department
         of Transportation (DOT) and, indeed, the nation. Last year, the top
         agenda item for DOT was to establish the Transportation Security
Administration (TSA) and within congressionally mandated timelines hire and
train an estimated 60,000 Federal screeners and deploy explosives detection
equipment for screening all checked baggage at more than 400 airports nation-
wide. Primary responsibility for this and other transportation security issues will
transfer to the new Department of Homeland Security (DHS) in March of
2003.
   As this transition takes place, we will also be redirecting our work. We intend
to complete our ongoing work related to TSA and the Coast Guard, respond to
requests from congressional and Administration officials, but not self-initiate any
new work in these areas. This plan will enable us to focus our work over the
next 6 months on DOT's key transportation safety and mobility issues: (1) seek-
ing program improvements through reauthorization of the Aviation Investment
and Reform Act for the 21st Century (AIR–21) and the Transportation Equity
Act for the 21st Century (TEA–21); (2) determining how best to structure and
fund intercity passenger rail; (3) ensuring highway safety as the southern border
is opened to Mexican motor carriers under the North American Free Trade Act
(NAFTA); (4) controlling excessive cost increases in Federal Aviation
Administration (FAA) operations; (5) improving transportation safety by reduc-
ing the risk of aviation accidents due to operational errors and runway incursions
and enforcing seat belt laws to limit fatalities and injuries on our highways; and
(6) implementing the President's Management Agenda — including needed
improvements to computer system security.
  To support DOT in these efforts, we have work under way or planned for
the reporting period October 1, 2002–March 31, 2003.

                                Aviation Audits
■ Determine whether FAA’s Air Traffic En-Route Center operations are ade-
quately secured to ensure the integrity, confidentiality, and availability of mis-
sion-critical systems within the National Airspace System.

                                                                                      w or k p l a n n e d a n d i n p r o g re s s   11
                                      ■ Determine whether: (1) FAA has adequate contract oversight to identify
                                      cost overruns and improper billings; (2) FAA has implemented sound business
                                      practices when issuing and administering contract task orders; (3) contract
                                      deliverables meet FAA’s requirements and are cost-effective; and (4) contract
                                      personnel meet skill and qualification standards.
                                      ■ Evaluate management of FAA’s Integrated Terminal Weather System with
                                      respect to cost, schedule, and performance. Examine how FAA will use the sys-
                                      tem to lessen the impact of adverse weather and improve the flow of air traffic.
                                      ■ Audit FAA’s Local Area Augmentation System (LAAS) program to deter-
                                      mine its cost, schedule, and risk. Explore key issues affecting the development
                                      and deployment of LAAS for operational use. LAAS is a satellite-based tech-
                                      nology offering important safety and capacity benefits and playing an important
                                      part in FAA’s new Operational Evolution Plan.
                                      ■ Determine whether FAA is making progress in reducing runway incursions
                                      and operational errors and what further action is needed.
                                      ■ Assess the validity of the proposed cost of implementing FAA’s Operational
                                      Evolution Plan (OEP), a set of initiatives and milestones for expanding capac-
                                      ity in the air traffic control system. Examine how the 9–11 terrorist attacks, the
                                      economic downturn, and new security measures affected the milestones and
                                      budgets of OEP initiatives and assess the critical issues for achieving anticipat-
                                      ed capacity enhancements.
                                      ■ Determine if FAA has identified all funding requirements necessary to
                                      upgrade or replace long-range radars, addressed gaps in domestic radar cover-
                                      age, and coordinated aircraft surveillance requirements with other Government
                                      agencies such as the Department of Defense (DOD).
                                      ■ Determine if FAA is: (1) ensuring that repair stations have controls in place
                                      to provide adequate security for aircraft and repair facilities; (2) verifying that
                                      foreign civil aviation authorities conducting inspections on FAA’s behalf ensure
                                      that aircraft are adequately safeguarded, repairs are completed properly, and
                                      identified deficiencies are corrected; (3) monitoring changes in air carriers’
                                      maintenance expenses and repair station usage to identify notable trends and
                                      effectively target FAA’s surveillance resources; and (4) ensuring that mainte-
                                      nance work at FAA-approved repair stations is performed by trained, qualified
                                      personnel and complies with approved maintenance procedures.
                Photo by Trans Pixs
                                                   Financial and Information Technology Audits
                                      ■ In response to concerns raised during an oversight hearing before the
                                      House Transportation Appropriations Subcommittee on April 17, 2002
                                      regarding the oversight of security screener contracts, evaluate whether: (1)


12   Semiannual Report to Congress
rates charged to TSA were supported by contractor records and were in accor-
dance with contract requirements; (2) contractor invoices were supported; and
(3) oversight and administration of screener contracts were effective.
■ Determine the validity of total amounts reported by the Department's
Transportation Administrative Service Center (TASC) for fiscal year 2001, the
accuracy of revenue and cost balances as shown by service activity, and the ade-
quacy of internal controls. We also will verify the accuracy of TASC’s billings
to customers and identify potential improvements to the billing processes.

                 Department-Wide Management Issues
■ Assess the controls over computer center operations in these areas: (1) secu-
rity planning to ensure that Delphi, DOT’s new financial management system,
was properly assessed for risk; (2) access security to ensure that Delphi files,
documents, and facilities are accessible to authorized personnel with proper
segregation of duties; (3) system software settings to ensure firewall, network,
database, and transmission controls are adequate; (4) configuration manage-
ment controls to ensure that only authorized changes can be made to Delphi;
and (5) business continuity and contingency plans to ensure that the plans are
adequate and have been tested.
■ Audit DOT’s FY 2002 financial statements to determine whether: (1) prin-
cipal financial statements and accompanying notes are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting prin-
ciples; (2) adequate internal controls exist over financial reporting, including
safeguarding assets; and (3) DOT complied with laws and regulations that
could have a direct and material effect on the financial statements.
■ As required by the National Energy Conservation Policy Act, determine
whether: (1) DOT’s Energy Management and Conservation Program complies
with the act and other applicable laws and regulations; (2) DOT’s energy
reports are reliable and reasonably accurate; and (3) DOT is exploring new
ways to reduce energy consumption and is using available opportunities to
reduce its energy consumption and costs.
■ Determine whether: (1) employees used DOT travel charge cards to obtain
Government rates for personal benefit; (2) internal controls were adequate to
provide safeguards against unauthorized use; and (3) delinquent travel credit
card accounts were identified, monitored, and resolved.
■ Review the adequacy of DOT Operating Administrations' plans for devel-
oping and implementing the cost-accounting processes.




                                                                                   w or k p l a n n e d a n d i n p r o g re s s   13
                                                    Highway Infrastructure and Safety Programs
                                      ■ Determine whether the finance plan for Boston’s Central Artery/Tunnel
                                      Project complies with the Federal Highway Administration’s (FHWA) finance
                                      plan guidance and report the results as required by the House Conference
                                      Report on the 2001 Transportation Appropriations Act. The Central
                                      Artery/Tunnel Project, which is estimated to cost $14.625 billion, has experi-
                                      enced frequent cash and schedule overruns and for these reasons warrants con-
                                      tinued close scrutiny.

        “Big Dig” tunnel in Boston.   ■ Determine whether the Federal Motor Carrier Administration’s (FMCSA)
                                      “SafeStat” system (for Safety Status Measurement System) contains reliable
                                      data and generates valid safety status rankings. SafeStat monitors motor carri-
                                      er records to target enforcement to carriers posing the greatest accident risk.
                                      ■ Evaluate the effectiveness of FHWA’s oversight of the management
                                      processes of state departments of transportation to help ensure that states prop-
                                      erly manage Federal aid programs. Analyze the procedures used by FHWA
                                      division offices to conduct risk assessments and process reviews of state over-
                                      sight programs.
                                      ■ Evaluate the National Highway Traffic Safety Administration’s (NHTSA)
                                      progress in fulfilling requirements of the TREAD Act by determining whether
                                      our prior recommendations have been implemented and assessing progress in
                                      developing software for the early warning information system. The TREAD Act
                                      requires vehicle and equipment manufacturers to periodically report a variety of
                                      information to NHTSA that could indicate the existence of potential safety
                                      defects. The act also increases penalties for violations of the vehicle-safety law.

                                                    Transit, Rail Safety, and Maritime Programs
                                      ■ Follow up on our 2001 findings regarding Seattle’s Central Link Light Rail
                                      Project (Sound Transit). Examine whether Sound Transit and the Federal
                                      Transit Administration (FTA) adequately addressed issues presented in our
                                      April 2001 audit report. Review the estimated cost, funding, schedule, and risks
                                      associated with the revised project and the safety issue of running buses and
                                      trains in the downtown bus tunnel.
                                      ■ Evaluate DOT’s efforts to increase the safety of railroad-highway grade
                                      crossings and the status of safety proposals included in the 1994 Rail-Highway
                                      Grade Crossing Safety Action Plan.
                                      ■ Monitor FTA’s oversight of the Lower Manhattan Transit Recovery
                                      Projects.




14   Semiannual Report to Congress
■ Evaluate the Puerto Rico Highway and Transit Agency’s most recent cost,
schedule, funding estimates, and actions to correct construction problems in
the Tren Urbano Rail Transit Project in San Juan.
■ Determine whether the Coast Guard properly used FY 2002 operating
expense funds earmarked to: (1) increase staffing at search-and-rescue stations
and command centers; (2) increase the training and experience levels of station
personnel; and (3) modernize and improve the quantity and quality of person-
al safety equipment for station personnel. Follow up on our findings from an
audit of the Small Boat Station Search and Rescue Program.
■ Evaluate funding requirements, progress, and management controls for the
Coast Guard’s Integrated Deepwater System project and the impact of project
funding on the acquisition, construction, and improvements budget.

          Transportation Security and Hazardous Materials
■ Monitor TSA’s efforts to meet its deadline to screen all checked baggage
using explosives detection systems or alternate screening methods.
                                                                                                 Photo courtesy of U.S. Coast Guard
■ Evaluate TSA’s policies, procedures, and controls for operating an effective
and efficient Federal Air Marshal program.
■ Monitor and investigate illegal transportation of hazardous materials in all
modes of transportation.

                  Competition and Economic Analysis
■ Review the Maritime Administration’s Title XI loan guarantee program to
determine whether procedures for submission, review, approval, and monitor-
ing of Title XI loan guarantees are adequate to effectively protect the interests
of the U.S. Government, and assess the impact of American Classic Voyages,
Inc., bankruptcy filing on its Title XI loan guarantees.
■ Assess changes in air transportation and the extent to which air carriers con-
tinue to provide adequate service, especially to smaller communities.
■ Monitor Amtrak’s financial status, business-plan projections, and capital
plans.
■ Evaluate the reasonableness of air carrier compensation payment claims
under the Air Transportation and System Stabilization Act, which authorizes
payment to air carriers for losses resulting from the 9–11 terrorist attacks.




                                                                                    w or k p l a n n e d a n d i n p r o g re s s   15
                                                    a c t i v i t i e s

                                                    Aviation Repair Station Owner Jailed for Falsifying Aircraft Repairs
                                                    April 5
                                                       John J. Dimattei, owner of Mohawk Aviation, Ft. Lauderdale, FL, was sen-
                                                    tenced to a year in jail, fined $10,000, and ordered to pay $20,000 in restitu-
                                                    tion by a U.S. District Court judge in West Palm Beach, FL, for falsifying doc-
                                                    uments. An engineering representative overseen by FAA, Dimattei falsely por-
                                                    trayed Mohawk as an FAA-certified repair station and completed repairs to mil-
                                                    itary aircraft. In fact, Mohawk is not an FAA-certified repair station and was not
                                                    authorized to do the repairs. OIG investigated this case with the Defense
                                                    Criminal Investigative Service (DCIS).

                                                                  Shipper Agrees to $100,000 Fine for Illegal
                                                                      Transport of Hazardous Materials
                                                    April 9
                                                       Quick Transportation, Inc., Stockton, CA, agreed to pay a $100,000 fine as a
                                                    result of a plea agreement in U.S. District Court in Sacramento, CA, for illegally
                                                    transporting military decoy flares. Because the flares are made of compressed
                                                    nitrogen and become dangerous under extreme heat or pressure, they are classi-
                                                    fied as a hazardous material and must be shipped under surveillance. The flares
                                                    were to be shipped from Indiana to California in the custody of a Quick Trans-
                                                    portation employee, but the company delivered them instead to Union Pacific
                                                    Railroad. They were discovered when the train transporting them derailed near
                                                    Lodi, CA, in January 1998. The company owner, Neal Brady, who also owns
Hazardous military flares                                              Available Shippers and Ready Transportation, has paid restitu-
  were to be shipped under                                             tion of $50,000 for the damage caused when the hazardous
 constant surveillance but
       were not. They were                                             materials spilled. OIG investigated this case jointly with the
discovered when the train                                              Naval Criminal Investigative Service and the Federal Bureau of
                  derailed.                                            Investigation (FBI), with assistance from the Federal Railroad
                                                                       Administration (FRA), FMCSA, and the Research and Special
        Photo by Stockyard                                             Programs Administration (RSPA).




16                  Semiannual Report to Congress
           Man Jailed for Using False FAA Mechanic’s License
April 9
   Derek Randall Hicks of Merced, CA, pleaded guilty in U.S. District Court
in Fresno, CA, to approving the airworthiness records for Boeing 737 jets
when he was not qualified to do so. He also admitted to making false state-
ments when he used a fraudulent FAA mechanic's license to obtain employ-
ment as a certified FAA aircraft mechanic specializing in hydraulics. Hicks per-
formed maintenance on aircraft that carried professional sports teams, such as
the Sacramento Kings basketball team and the San Jose Sharks hockey team.
He was sentenced to 2 months in jail and 2 years’ supervised release.


     Former Moving Company Employees Jailed in Fraud Case
          Involving 259 Victims, $1.5 Million in Losses
April 9
   David Frank, former manager, and Melanie Murphy, former customer ser-
vice representative, of All American Van Lines, Pembroke Park, FL, were sen-
tenced in U.S. District Court in Miami for their involvement in a household
goods moving scheme that defrauded 259 victims and amounted to $1.5 mil-
lion in losses. In the scheme, five defendants induced victims to contract for
household goods moving and shipping services and then forced them to pay
significantly higher, bogus hidden costs. The defendants held the goods as
ransom until they received payment and, in some cases, never returned the vic-
tims' belongings. Frank was ordered jailed for 20 months and Murphy for 12
months. Frank and Murphy were ordered to pay $5,914 each in restitution to
one of the victims.
   In the summer of 2001, former president Yaron Tishby and Ramon Del-
Valle, foreman, were each given prison terms and ordered to make full restitu-
tion to the victims. The fifth and final defendant, Caroline McGowan, a former
office manager, is a fugitive and believed to be somewhere in Ireland. The
investigation was conducted jointly by OIG, the FBI, and the Florida
Department of Law Enforcement.


               French Bridge Builder Fined $485,000 to
                    Settle Construction Fraud Case
April 10
   Freyssinet International et Compagnie of Velizy, France, reached an out-
of-court settlement in which it agreed to pay $485,000 in a case that




                                                                                   a c t i v i t i e s   17
                                                   a c t i v i t i e s

                                                   brought allegations of antitrust violations and false claims. Freyssinet
                                                   International, a construction company specializing in the design and con-
                                                   struction of cable-stay bridges, was operating in the U.S. under the licens-
                                                   ee CCS Special Structures, Inc., Manassas, VA. Freyssinet conspired with
       Freyssinet International et                                              VSL United States and Dywidag-Systems,
  Compagnie conspired to win the                                                International, USA, Inc., to rig bids on bridge
 bid for the Charles River bridge,
                                                                                projects in the U.S. from June 1996 to
shown here, part of the "Big Dig"
            project in Boston, MA.                                              September 1997. In the conspiracy, Freyssinet
                                                                                was selected to win the bid for the Charles
                                                                                River Project in Massachusetts, and as a result
                                                                                of its anticompetitive arrangements with VSL
                                                                                and DSI, caused inflated bids to be submitted
                                                                                to and paid for by DOT and the State of
                                                                                Massachusetts


                                                               Audit Finds ITOP Has Not Met DOT’s Mission
                                                   April 15
                                                      We issued our audit report on the Information Technology Omnibus
                                                   Procurement Program (ITOP) to the Department and House and Senate
                                                   Appropriations Committees. We found that: (1) ITOP has not served DOT's
                                                   mission as envisioned, (2) is not financially self-sufficient, and (3) has
                                                   received little DOT oversight. ITOP is a program through which all
                                                   Government agencies, including state and local governments, can procure
                                                   information technology services. ITOP was to streamline the procurement
                                                   process by using prequalified providers under contract with TASC, making it
                                                   possible to award contracts within about 2 months, compared with the usual
                                                   1 year. TASC manages ITOP's day-to-day program operations.
                                                      In response to our draft report, DOT decided not to seek redesignation as
                                                   an executive agent for a Government-wide acquisition program. The Deputy
                                                   Secretary established a review board headed by the Assistant Secretary for
                                                   Budget and Programs to set TASC's future direction. The Department



18                 Semiannual Report to Congress
directed TASC: (1) not to expand or approve any contracts for services to
non-DOT customers without the board's approval, and (2) to take the steps
necessary to recover the costs of contracts, which were not generating suffi-
cient revenue to cover ITOP's total expenses.


                 Update of FAA's Actions to Address
              Occupational Hazards of Flight Attendants
April 16
    We reported to Representative Peter DeFazio that FAA still has not made
progress in issuing standards that address occupational hazards faced by flight
attendants. In our September 2001 audit report, we recommended that FAA,
with the Occupational Safety and Health Administration (OSHA), establish
milestones within 90 days to complete work begun in August 2000 and address
safety and health concerns. Even though a joint FAA-OSHA team recently
reconvened, we have little confidence that after 26 years, industry standards     OIG reported that FAA has still not made
would be issued in the near future. As a result of our memorandum, members        progress in issuing standards for the
                                                                                  occupational hazards of flight attendants.
of Congress urged the FAA Administrator to take immediate action to provide
flight attendants with workplace protections. FAA, in response to that request,   Photo courtesy of
                                                                                  Association of Flight Attendants
issued an action plan to identify the extent of the workplace hazards and elim-
inate them.


   Grey Market Vehicle Importer, President to Pay $1.26 Million
April 16
    Container Services, Inc., a vehicle importation company in Miami, FL, and
its president, Nicole G. Schmitt of Miami Beach, were each ordered by a U.S.
District Court judge in Miami to pay restitution of $625,000 for illegally
smuggling and selling 45 luxury cars in the U.S. valued in excess of $1.5 mil-
lion. The defendants imported the vehicles under the “foreign national excep-
tion,” which allows short-term visitors to bring their cars into the country
without having to pay taxes on them. They then fraudulently titled and sold
them without bringing them into compliance with DOT safety and EPA envi-
ronmental standards or paying U.S. Customs duties. Both defendants were
also prohibited from dealing in the importation of any vehicles. Container
Services, Inc. was also sentenced to 2 years’ probation and fined $10,000.
Schmitt also received 4 months in a community treatment center and 4
months’ home detention. Four other defendants pleaded guilty in December
2001. OIG investigated this case with the Environmental Protection Agency
(EPA), the U.S. Customs Service, and NHTSA.




                                                                                  a c t i v i t i e s                          19
                                                   a c t i v i t i e s

                                                       Former Plant Manager of Strandflex Pleads Guilty to Making
                                                         False Claims About Aircraft Control Cable to DoD, NASA
                                                   April 16
                                                      David Waddell, a former plant manager of Strandflex Company, a division of
                                                   Maryland Specialty Wire, Inc., pleaded guilty in U.S. District Court in
                                                   Syracuse, NY, to making false claims to the Department of Defense and
                                                   National Aeronautics and Space Administration (NASA) in connection with
                                                   false certification of aircraft control cable. In 2001, a U.S. District Court judge
     Falsely certified Strandflex aircraft cable
                   seized by OIG special agents.
                                                   in Syracuse ordered Strandflex, Oriskany, NY, to pay a criminal fine of
                                                   $500,000 and $100,000 in restitution for manufacturing aircraft cable and
                       Photo courtesy of OIG       falsely certifying that it met the U.S. military specifications for manufacture and
             Criminal Investigative Region 2
                                                   testing. Relying on these certifications, Strandflex customers sold the cable to
                                                   Government agencies and the civilian aviation industry regulated by FAA. The
                                                   company also agreed to pay $1 million to settle a civil complaint. Waddell is
                                                   scheduled to be sentenced in the fall 2002. OIGs from the Department of
                                                   Defense, NASA, and DOT investigated the case.

                                                                 Salesman to Pay $81,500 in Restitution for
                                                                       Bribing Miami Airport Official
                                                   April 17
                                                      Edwin L. Perkinson of Boca Raton, FL, was sentenced in U.S. District Court
                                                   in Miami for paying $81,500 in bribes to a top Miami International Airport
                                                   administrator in order to win a $2 million soil-cleaning contract without bid-
                                                   ding. The airport administrator resigned during the investigation. Perkinson was
                                                   ordered to spend 1 year in jail and pay $81,500 in restitution to Miami-Dade
                                                   County. As a result of the bribes, Universal Environmental Technologies, of
                                                   Oklahoma, where Perkinson worked as a contract salesman, was awarded the
                                                   contract to remove jet fuel and other contaminants from airport soil. OIG inves-
                                                   tigated this case with the Internal Revenue Service (IRS), FBI, and Miami-Dade
                                                   Police Department.




20                Semiannual Report to Congress
        Carnival Fined $18 Million for Environmental Crimes




                                                                                                          The Miami Herald
April 19
   Carnival Corp., Miami, FL, the world's largest cruise ship operator, was
fined $18 million after pleading guilty in U.S. District Court in Miami to six
felony counts for lying about illegally discharging oily bilge wastes into waters
off Florida and in the Caribbean. The fine was split into a $9 million criminal
fine — the largest ever paid by a cruise line operator for environmental viola-
tions — and another $9 million for community service dedicated to environ-
mental preservation. In addition, Carnival was placed on 5 years' probation,
must establish an environmental compliance department, and must hire exec-
utives and ship personnel to enforce environmental treatment programs.
Carnival admitted that its operators aboard six of its cruise line vessels
schemed from July 1998 to January 2001 to evade the permissible discharge
limits and falsified its Oil Record Book, a record of the treatment and dis-
charge of wastes that must be presented to the U.S. Coast Guard after voy-
ages. This was a joint investigation by OIG, EPA, FBI, U.S. Coast Guard,
U.S. Customs Service, and Florida Department of Environmental Protection.

       Northern Gas Transport Fined $75,000, Given 5 Years'
              Probation in Hours-of-Service Scheme
April 19
    Northern Gas Transport, Inc. (NGT) of Lyndonville, VT, a hauler of
propane gas and other hazardous and volatile materials, was fined $75,000 and
given 5 years' probation by a U.S. District Court judge in Rutland, VT, for fal-
sification of drivers' logs and obstruction of justice. NGT president Bruce
Grant was fined $5,000 and placed on 2 years' probation on the same charges
for systematically requiring NGT truckers to drive more hours than those per-
mitted by Federal regulations and for hiding documents showing that NGT
regularly omitted trips from drivers' logs. NGT's Safety Manager, Bradley
Grant, received 2 years' probation for concealing documents during the course
of a FMCSA compliance review. In March 2002, NGT Dispatcher Gary
Chamberlain was fined $1,000 on related charges.
    The court order also mandated NGT to create policies and programs to
ensure company drivers work only within hours-of-service limits; comply
with licensing, vehicle inspection, drug-testing, and accident-reporting
requirements; maintain proper records; and fully cooperate with enforcement
authorities. The case was investigated by the OIG, with assistance from
FMCSA.




                                                                                    a c t i v i t i e s                      21
                                     a c t i v i t i e s

                                                     Delaware Minister Convicted of Stealing
                                                         $150,000 Transportation Grant
                                     April 24
                                        Reverend Lawrence Wright of Wilmington, DE, was convicted in U.S.
                                     District Court in Wilmington of conspiracy, theft of funds, money laundering,
                                     false statements, and bribery related to a $150,000 state grant his church won
                                     for public transportation projects. Wright kept most of the money, but used
                                     $60,000 to bribe a local politician, now deceased, to help win the grant. The
                                     church received $10,000 of the designated funds. In Delaware, FHWA funds
                                     25 percent of such transportation enhancement projects when matched with
                                     suburban street funds. Wright is scheduled to be sentenced in November. OIG
                                     investigated the case jointly with the FBI.

                                           Fines, Confinement Ordered in MARAD Mail-Fraud Case
                                     April 29
                                        W.B. Construction Company of Beaumont, TX, was ordered by a U.S.
                                     District Court judge in Beaumont to pay a $96,000 fine and spend 2 years on
                                     probation, which suspends eligibility to do Government contract work. Company
                                     owner Wallace Batiste, Sr., also of Beaumont, was fined $30,000 and received 6
                                     months' community confinement. The company and Batiste pleaded guilty to
                                     mail fraud in May 2001 in connection with rigging bids on Federal construction
                                     and service contracts with former Maritime Administration (MARAD) Fleet
                                     Superintendent Frederick P. Splinter from 1993 until 1999.
                                        Splinter was also prosecuted. He was ordered, on August 19 by a U.S.
                                     District Court judge in Beaumont, to pay $127,500 in restitution, spend 2
                                     years in jail without parole, and serve 12 months of supervised release for
                                     receiving gratuities from a MARAD contractor. The restitution included
                                     $50,000 Splinter paid to avoid forfeiting his residence, which was partially paid
                                     for by W.B. Construction Co., Inc. as part of a long-running scheme to rig bids
                                     at the Beaumont MARAD facility. MARAD removed Splinter from his position
                                     during the investigation. OIG conducted the investigation jointly with DCIS
                                     and the FBI.

22   Semiannual Report to Congress
                          FAA's Air Transportation Oversight System
    The Air Transportation Oversight System      for weaknesses found in air carrier main-     and the results of this project became the
(ATOS) is FAA's new approach to oversee-         tenance and operations systems;               framework for developing ATOS.
ing air carrier safety. This new system is an    ■ better prepare its inspectors to carry          After the January 2000 crash of Alaska
important change in the way FAA conducts         out ATOS; and                                 Airlines Flight 261, the Senate Committee
air carrier safety inspections, because it       ■ establish strong national oversight and     on Commerce, Science, and Transportation
shifts FAA's oversight beyond the tradition-     accountability to ensure consistent imple-    asked us to review FAA's oversight of air-
al method of simply checking an air carri-                                                     line safety. Following this request, the
                                                 mentation of ATOS in the field.
er's compliance with regulations to identi-                                                    House Committee on Transportation and
                                                    We also found that the location and
fying and assessing risks to safety.                                                           Infrastructure asked us to review FAA's
                                                 qualifications of inspectors remain a bar-
    At the request of the Senate Committee                                                     current approach for providing oversight of
                                                 rier to implementing ATOS, and FAA
on Commerce, Science, and Transportation                                                       airline operations and maintenance and
                                                 inspectors lack confidence in ATOS and
and the House Committee on Transpor-                                                           the agency's efforts to target its inspector
                                                 have not widely accepted it. While aware
tation and Infrastructure, we audit-
ed ATOS, releasing our report on
April 8. Our objectives were to
assess FAA's progress in imple-
menting ATOS and identify barriers
to successfully implementing it.
    In the report and in testimony on
April 11 before the House Transpor-
tation and Infrastructure Aviation
Subcommittee, Principal Assistant
Inspector General for Auditing and
Evaluation Alexis M. Stefani report-
ed our findings that while ATOS is
conceptually sound, in actual field
operations it is still not reaching its
full potential. She said significant chal-                                                     workforce to the most pressing concerns.
                                                 of problems in ATOS since 1999, FAA has
lenges to full implementation still exist. FAA                                                 To address these requests, we reviewed
                                                 been slow to take corrective actions.
initiated ATOS at 10 of the nation's largest                                                   FAA's implementation of ATOS.
                                                     FAA generally agreed with our recom-
passenger air carriers on October 1, 1998.
                                                 mendations and said it is working to cor-
It has not been expanded to the remaining
                                                 rect problems.
129 passenger air carriers.
                                                     The history of ATOS began in the after-
                                                 math of the 1996 ValuJet accident, when
We recommended                                   FAA formed a task force to review its safe-
that FAA:                                        ty-inspection process. The task force rec-
                                                 ommended that FAA base its inspections on
■   finish developing and testing key ele-       an assessment of safety risks, rather than
ments of ATOS, specifically, its processes       simply verifying whether carriers complied
for analyzing ATOS inspection results and        with FAA requirements. To accomplish this
ensuring that corrective actions are taken       recommendation, FAA hired a contractor




                                                                                               a c t i v i t i e s                       23
               Federal Standards for Commercial Driver's Licenses
    After the 9–11 terrorist attacks, appre-
 hension arose about the potential use of
 trucks in terrorist activities. The threat
 from hazardous materials gained in-
 creased attention when the Justice
 Department released a list that included
 22 people indicted for obtaining fraudulent
 commercial driver's licenses (CDLs) to
 transport hazardous material.
    On May 8, we released our audit of how
 well the Federal Motor Carrier Safety             comprehensive reviews. We recommended        and identify systemic problems. We rec-
 Administration (FMCSA) oversees state CDL         that the states use more rigorous self-      ommended FMCSA do multistate assess-
 programs. The audit was the second in a           assessments.                                 ments of specific areas.
 series requested by the House Committee           ■ Despite improvements in its oversight      ■ Past follow-up on the status of state
 on Transportation and Infrastructure in           reviews of individual states, FMCSA can do   problems has not been adequate. Ensuring
 response to the March 15, 1999, collision         more to improve the quality of the reviews   the timely correction of problems and
 between an Amtrak train and a tractor trail-
                                                                                                using sanctions when states fail to correct
 er at a grade-crossing in Bourbonnais, IL.
                                                                                                significant problems could improve the
 The crash killed 11 train passengers and            CDLs: Did You Know?                        national CDL program.
 involved a truck driver with a history of CDL
                                                                                                   FMCSA concurred with our recommen-
 suspensions.                                        ■   An estimated 470,000 new CDLs
                                                                                                dations and identified corrective actions
                                                         are issued each year.
                                                                                                that are planned or under way.
We found that:                                       ■   Under Federal standards, a driver         We also reported that suspected crimi-
                                                         must have a CDL to operate a           nal activity dealing with CDLs has been
 ■    Existing Federal standards are not suf-                                                   identified in 16 states since 1998.
                                                         commercial motor vehicle weigh-
 ficient to address how the states should                                                       Criminal investigations of CDL fraud show
                                                         ing 26,001 pounds or more, or
 verify the eligibility of CDL applicants and            hauling hazardous materials, or        that third-party examiners (nonstate
 what training and qualifications CDL                    transporting at least 16 passen-       employees who can administer driving
 examiners should have. We recommended                   gers, including the driver.            tests) have been particularly susceptible
 that FMCSA issue or clarify Federal stan-                                                      to fraud. During this reporting period, a
 dards which address the applicant's legal           ■   Commercial drivers are limited to      woman was sentenced for helping more
 presence in the United States, require                  a single license that is issued by     than 1,000 unqualified truck drivers obtain
 proof of the applicant's state residency,               one state but recognized by all        Florida CDLs in return for bribes. As a
 verify the applicant's Social Security infor-           other states.                          result of our investigation, she and her
                                                                                                partner were convicted for giving unquali-
 mation, establish qualifications for CDL
                                                     ■   States must ensure that commer-        fied applicants answers to the written CDL
 driver examiners, regulate issuance of CDL              cial drivers successfully complete     test and signing that the applicants had
 learner's permits, and set guidelines for               the appropriate tests of knowl-        passed the practical driving test when no
 English language proficiency.                           edge and a driving test taken in       test was given. Two truckers were later
 ■ The states' annual certifications that                the type of commercial motor           involved in two separate accidents that
 their CDL programs comply with Federal                  vehicle they expect to operate.        claimed nine lives (see page 32 for a com-
 standards are not supported by sufficiently                                                    plete writeup).



24                 Semiannual Report to Congress
Alpine Express to Reimburse DOT $225,600 in False-Claims Settlement
May 1
   Alpine Express, Inc., Provo, UT, agreed to reimburse DOT $225,600 and
will be debarred from future participation in the Essential Air Service program
as settlement of a Federal civil suit under the False Claims Act. The suit alleged
the company violated the act when it billed DOT under the Essential Air
Service program for providing passenger service between Salt Lake City and
Ely, NV, on a Piper Cheyenne III, when it used a Piper Navajo instead. The
Piper Cheyenne III is a twin-engine, turboprop aircraft with a pressurized
cabin and is almost twice as expensive to operate as the Navajo, a piston-driv-
en twin-engine plane with an unpressurized cabin.

         Coast Guard's Inventory Management of Spare and
              Repair Parts for Cutters and Small Boats
May 7
   We issued our audit of Coast Guard's inventory management of spare and
repair parts of cutters and small boats. During FY 2002, Coast Guard planned
to begin constructing a new warehouse for inventory parts managed by its
Engineering Logistics Center. Of the items to be housed in the new building
in Curtis Bay, MD, 59 percent are inactive, meaning there were no requests for
them over a 32-month period, and an additional 28 percent were in low
demand, meaning they were requested four or fewer times annually.
   Coast Guard agreed to review its inventory to identify items for transfer to
the Defense Logistics Agency or other Government agencies and dispose of
unneeded inventory. Coast Guard's response included a reevaluation, which
concluded that the warehouse was needed and appropriately sized. A contract
was let in June.

            FAA Oversight of Cost-Reimbursable Contracts
May 8
   We determined that FAA is not properly administering payment and close-
out of cost-reimbursable contracts in accordance with acquisition regulations
and guidance. We found that contracting officers were deficient in how they
managed contracts from the time of award to closeout. A backlog of 1,400
contracts valued at $6 billion was overdue for being closed out. In addition,
FAA did not obtain the required audits for contracts totaling $2 billion. As a
result of our recommendations, the FAA Administrator will report to the
Deputy Secretary efforts to restore accountability to contract management and
progress on resolving contract administration problems. We estimate that FAA



                                                                                     a c t i v i t i e s   25
                                     a c t i v i t i e s

                                     could avoid potential improper payments of $132 million if audits are obtained
                                     and contract closeouts are performed adequately.

                                                     Co-Conspirator Fined $10,000 in Texas
                                                         Mass Transit Contract Scheme
                                     May 10
                                        Irie L. Turner, Jr., a former contracts and procurement manager for the
                                     Capital Metropolitan Transportation Authority (CMTA) of Austin, TX, was
                                     fined $10,000 by a U.S. District Court judge in Austin for his role in a con-
                                     spiracy to defraud CMTA. Turner pleaded guilty in January 2002 to conspir-
                                     ing with James Vickers, Jr., who paid Turner to win a $10,000 contract. As part
                                     of the scheme, Vickers, a former Lexis-Nexis director of product development
                                     and marketing and senior vice-president of Purconn Unlimited, arranged to
                                     pay Turner more than $20,000 through fraudulent invoices to Lexis-Nexis.
                                     Turner illegally awarded “low-bidder” Purconn procurement contracts on a
                                     project to produce a vendor-application form and a policy-and-procedure man-
                                     ual. The manual provided to CMTA was a plagiarized copy of the Dallas Area
                                     Rapid Transit Authority Procurement Regulations. Turner was also sentenced
                                     to 1 month in prison and placed on supervised release for 36 months. In
                                     September 2001, Vickers was sentenced to 1 month in jail and restitution of
                                     $32,000. The investigation was conducted jointly by OIG and the FBI.

                                              Tanker's Captain and Chief Engineer Plead Guilty to
                                                       Discharging Wastes into the Sea
                                     May 10
                                        The captain and chief engineer of the tanker Guadulupe pleaded guilty in
                                     U.S. District Court in Newark, NJ, to lying to the Coast Guard about empty-
                                     ing oily wastes into the high seas on at least 20 occasions. Elangovan Mani, the
                                     chief engineer, admitted to authorizing ship engineers to continue a practice of
                                     bypassing the ship's incinerator and oily water separator system to discharge
                                     waste oil, sludge, and oily water mixtures in violation of MARPOL, an inter-
              Photo by Stockyard     national treaty to prevent pollution from ships. To conceal the discharges, Mani

26   Semiannual Report to Congress
made fraudulent entries in the required Oil Record Book and other records,
which the U.S. Coast Guard periodically examines. Captain Ashok Kumar
admitted to conspiring to make false statements. The tanker is owned and oper-
ated by subsidiaries of OMI Corporation, Stamford, CT. A sentencing date has
not been set.

   Employee Sentenced for Falsifying Air Mechanic's Certificate
May 14
    Vihn Quac Tang, a former mechanic with BF Goodrich, Everett, WA, was
fined by a U.S. District Court judge in Seattle for falsifying an aviation airframe
and power plant (A&P) mechanic's certificate. Tang altered a photocopy of a
certificate belonging to an actual A&P mechanic to show that he was the cer-
tificate holder, using the false certificate to extend his employment and obtain
a wage increase. Tang was fined $330 and placed on probation.

              Vessel Owner Sentenced in Drowning Case
May 17
    Joseph Mitlof, owner of Hudson Valley Waterways in
Valley Cottage, NY, was sentenced by a U.S. District Court
judge in White Plains, NY, after a jury found him guilty of
manslaughter in connection with a fatal ferry accident on
the Hudson River near Nyack, NY, in August 1998. Mitlof
had advertised that his company operated Coast Guard-cer-
tified vessels, but was charged that the ferry was not certi-
fied to operate on the Hudson River and had various phys-
ical deficiencies rendering it unfit to carry passengers there.
Terminally ill, Mitlof was sentenced to 6 months' home
confinement and 2 years' probation. Daniel Sheehan, who
was piloting the boat and earlier pleaded guilty, was sen-
tenced in December 2001 to 4 months' home confinement and fined $3,000.               The Conservator was involved in a fatal
                                                                                      accident on the Hudson River near Nyack, NY.
OIG investigated this case with the U.S. Coast Guard and New York State Park
Police.                                                                               Photo courtesy of OIG
                                                                                      Criminal Investigative Region 2

        Letter Response to Congressional Requests Regarding
                   FAA's FY 2003 Research Budget
May 20
   In response to requests from Representatives Dana Rohrabacher and Bart
Gordon, House Science Committee, and Senators Fritz Hollings and John
McCain, Senate Commerce Committee, we provided information on FAA's
fiscal year 2003 budget request for research, engineering, and development

                                                                                      a c t i v i t i e s                      27
                                                    a c t i v i t i e s

                                                    (RE&D) to assist in congressional review of agency budgets and plans. We
                                                    noted that:

                                                    ■ FAA is requesting $126.7 million for RE&D — almost $70 million less than
                                                      last year's request, primarily because TSA has assumed responsibility for secu-
                                                      rity research.
                                                    ■ FAA will invest 80 percent of its FY 2003 RE&D budget request (about
                                                      $101 million) on safety-related research to reduce commercial and general
                                                      aviation fatalities, as well as improve overall system safety. Key initiatives in
                                                      this area include aging aircraft, fire safety, and weather research.
                                                    ■ There is wide agreement that greater attention is needed on what the air traf-
                                                      fic system will look like in the 2010–2015 time frame and beyond. We see the
                                                      key elements of the next-generation system as (1) maintaining and improving
                                                      safety and security, (2) addressing human factors for controllers and pilots, (3)
                                                      enhancing how the National Airspace System responds and recovers from bad
                                                      weather, and (4) addressing environmental and noise concerns.

                                                              Three Plead Guilty in Gas-Cylinder Retesting Case
                                                    May 20
                                                       Bev Con International, a gas-cylinder retesting firm, and its president Bobby
                                                    W. Allen, Sr., Brighton, TN, pleaded guilty in U.S. District Court in Memphis,
                                                    TN, to conspiracy, fraud, and hazardous materials violations for falsifying test
                                                    results on gas cylinders. On June 27, Charles D. Young, general manager of
                                                    related company BCI Industries, Inc. (BCII), also of Brighton, TN, pleaded
                                                    guilty to mail fraud. Bev Con, Allen, Young, and BCII were indicted December
                                                    13, 2001, for allegedly falsifying documents to reflect that hydrostatic retesting
                                                    had been completed on the cylinders when it had not. Under DOT regula-
                                                    tions, pressurized gas cylinders must be retested every 5 years in order to ensure
 Gas cylinders seized as evidence in the Bev Con
      International gas-cylinder retesting case.    their structural integrity and safety, so they will not explode, causing serious
                                                    injury or death. The charges against BCII are still pending. Sentencing for the
           Photo courtesy of OIG Special Agent
                               Joseph Zschiesche    defendants is set for October 4. OIG and the FBI investigated this case, with
                                                    assistance from RSPA.



28                  Semiannual Report to Congress
                 Aircraft Parts Owner Jailed for Violating
                      Pretrial Order Regarding SUPs
May 22
   Aman Kahn, also known as Wally Merchant, owner of United Aircraft and
Electronics, in Anaheim, CA, was arrested for a second time when he violat-
ed a pretrial order not to conduct business concerning the manufacture and
sale of aircraft parts. Kahn was first arrested on April 4, 2002, for selling and
distributing suspect unapproved aircraft parts used in civilian and military air-
                                                                                        A suspect unapproved aircraft
craft. He was free on $1 million bail after being jailed by a U.S. District Court       part taken as evidence during the
judge in Santa Ana, CA, on charges involving the alleged falsification of air-          investigation of defendant Aman
                                                                                        Kahn.
craft parts certifications. A third-party defense contractor subsequently noti-
                                                                                        Photo courtesy of OIG
fied OIG special agents that Kahn sold them unapproved lenses for a weapon              Criminal Investigative Region 9
system on U.S. Air Force F–15 fighter aircraft. Kahn is on home confine-
ment. His trial date is scheduled for February 3, 2003.

 Trucking Broker Sentenced for Illegal Transportation of Hazmat
May 22
   Jack Weaver, owner of Weaver Enterprises, a trucking brokerage firm in
Chatsworth, GA, was sentenced in U.S. District Court in Biloxi, MS, for con-
spiracy to transport undeclared hazardous materials and chemicals. Weaver pre-
viously pleaded guilty to charges of creating and faxing a bill of lading that false-
ly identified the truck shipment as nonhazardous. He was fined $1,000 and
given 2 years' probation. FMCSA could revoke Weaver's authority to transport
hazardous materials in the future. OIG investigated this case with the FBI and
EPA's Criminal Investigations Division.


    Taxi Operator Given 33-Month Jail Term for Defrauding FTA
May 22
   Rick Clark, a Yellow Cab driver in Chicago, IL, was ordered by a U.S.
District Court judge in Chicago, to spend 33 months in jail and pay $41,100
in restitution to the Chicago Transit Authority for making fraudulent voucher
purchases. Clark conspired with seven disabled individuals to purchase hun-
dreds of FTA-subsidized transit vouchers from disabled people and then claim
the subsidy from each voucher without performing required taxi services.
Through subsidies, the FTA funds taxi rides for disabled individuals unable to
use public transportation. OIG special agents identified more than $80,000 in
fraudulent voucher purchases. OIG investigated this case with the assistance of
the Chicago Transit Authority.




                                                                                        a c t i v i t i e s                 29
                                     a c t i v i t i e s

                                                 DOT Compliance with Rural Development Act
                                                        Site Location Requirements
                                     May 28
                                        We provided correspondence to the Senate and House Appropriations
                                     Committees regarding DOT's compliance with the Rural Development Act of
                                     1972. Our review disclosed that although DOT has instituted a policy and
                                     procedures, the Operating Administrations are not complying with them. We
                                     recommended that DOT: (1) enforce the existing policy and (2) include cri-
                                     teria to be used when an Operating Administration evaluates the feasibility of
                                     locating new offices in rural areas and giving such areas first-priority consider-
                                     ation as referenced in the law.

                                                 Former Coast Guard Security Guard Fined for
                                                      Stealing Government Credit Cards
                                     May 29
                                       Ronald V. Bowman of Forestville, MD, a former contract security guard at
                                     the Coast Guard headquarters building in Washington, DC, was sentenced in
                                     U.S. District Court in Washington, DC, to restitution of $4,340, 25 hours of
                                     community service, and 3 years of probation for theft of public monies.
                                     Bowman stole 13 Government credit cards from the building and used them
                                     to charge personal items. OIG investigated the case with the Coast Guard
                                     Investigative Service.

                                              Aviation Company Fined $5,000 for Using FAA Seal
                                     May 29
                                        Aviation Safety Technologies, Inc. (ASTI) of Sarasota, FL, a firm that
                                     designs and installs aviation safety systems, was fined $5,000 by a U.S. District
                                     Court judge in Tampa, FL, after pleading guilty to illegally using an FAA seal.
                                     While negotiating a contract with a Korean firm in 1996, ASTI representatives
                                     electronically scanned FAA letterhead containing a seal. The fraudulent docu-
                                     ment attested to ASTI's experience and qualifications and bore the signature



30   Semiannual Report to Congress
of an FAA official who had not signed the document. OIG investigated this
case with FAA's assistance.

       Motor Carrier Fined $12,500 for Falsifying Drivers' Logs
May 30
   Bisson Moving and Storage Company, a freight and household goods carri-
er business based in Bath, ME, pleaded guilty in West Bath, ME, state district
                                                                                      Bisson Moving and Storage pleaded guilty to
court to 25 counts of keeping falsified drivers' logs and was fined $12,500. In       25 counts of keeping falsified drivers’ logs.
May 2000, the Maine State Police, in conducting a review of records subpoe-
naed from Bisson, requested OIG’s assistance. The ensuing joint investigation,
also involving FMCSA, revealed instances where drivers' logs had been falsified
to conceal hours-of-service violations. Bisson has taken remedial measures,
including firing certain drivers and retaining former state police supervisors to
improve company practices.




                                                                                                                 New York Times
         Follow-Up Memo Issued to FAA on STARS Acquisition
June 3
   We issued a memorandum to FAA regarding its acquisition of the Standard
Terminal Automation Replacement System (STARS), a modernization effort
estimated to cost $1.33 billion that will replace air traffic control systems at 74
facilities. We expressed concerns about FAA’s plans to deploy STARS in
Philadelphia in November 2002 and suggested the agency clarify what its
expectations are for STARS given the following factors:

■   System deficiencies — called “trouble reports” — continue to surface during
    STARS testing. As of May 2, 2002, there were 221 open critical trouble
    reports. Our concern stems from FAA plans to leave an unspecified number
    of these reports unresolved and unfixed.
■   FAA has deferred independent testing — which ensures the product is suit-
    able for controlling air traffic — until after initial operations have begun in
    Philadelphia. FAA had planned to complete independent testing in August
    2002, before the new system became operational in Philadelphia.
■   Problems persist with a smaller, less capable version of STARS that FAA
    began testing at El Paso, TX, on April 30, 2002. Controllers reported a num-
    ber of “emergency” and “high priority” issues that needed to be fixed, such
    as inaccurate information being displayed on controllers’ radar screens. We
    are concerned that if FAA cannot correct these problems at a site with a low
    volume of air traffic like El Paso, the system may not be safe for high-volume
    operations such as Philadelphia.



                                                                                      a c t i v i t i e s                             31
                                          a c t i v i t i e s

                                             Former FAA Employee Pleads Guilty to Embezzling $138,000
                                          June 4
                                              Lola A. Palmer, Oxon Hill, MD, a former FAA administrative contracting offi-
                                          cer, pleaded guilty in U.S. District Court in Washington, DC, to receiving more
                                          than $138,250 in funds stolen from the FAA in a conspiracy-kickback scheme.
                                          Palmer conspired with Sharon E. Alston and Alston's company, Alston
                                          Enterprises, which was awarded a $138,000 contract for computer equipment
                                          based on false documentation. False invoices authorized FAA's payment to
                                          Alston's company, even though Alston never ordered the equipment or delivered
                                          it. After depositing the check, Alston kicked back $64,650 to Palmer. Palmer
                                          could receive up to 5 years in jail and a $250,000 fine. OIG investigated the case
                                          with the FBI.

                                                     Former Uncertified Airline Mechanic Convicted
                                          June 5
                                             Michael S. Durgini, Everett, WA, pleaded guilty in U.S. District Court in
                                          Seattle, WA, to making false statements to the FAA. He was charged with pre-
                                          senting a fraudulent FAA airframe and power plant certificate when he applied
                                          for employment with Continental Airlines. He was also charged with inspect-
                                          ing and repairing aircraft during his employment with the carrier from 1992 to
                                          2000 and signing maintenance logs even though he was not certified. He was
                                          scheduled to be sentenced in October.

                                           Florida Truck-Driving School Tester Jailed in CDL Bribery Probe
                                          June 6
                                            Hilary M. Winniczek, a former employee of REACT, Inc., a Tampa truck-
                                         driving school, was sentenced in U.S. District Court in Chicago, IL, for help-
                                         ing unqualified truck drivers obtain Florida commercial driver’s licenses
                                         (CDLs) in return for bribes. Working with her partner Tony Puleo, Winniczek
     A fake commercial driver’s license.
                                         was charged with helping more than 1,000 unqualified Eastern European and
                                         Russian applicants obtain CDLs in return for $800 to $1,300 in cash bribes.
                Photo courtesy of OIG
      Criminal Investigative Region 5 Winniczek gave the applicants answers to the written CDL test and signed that



32        Semiannual Report to Congress
the applicants had passed the practical driving test when no test was given. Two
of the truckers were later involved in two separate accidents with a total of nine
fatalities. Typically, the applicants used the Florida CDLs to obtain commercial
licenses in Illinois and at least 19 other states. Winniczek was sentenced to 22
months in jail and fined $7,500. Puleo is waiting to be sentenced. The investi-
gation was part of Operation Safe Road, an investigation by a task force involv-
ing OIG, the FBI, the IRS Criminal Investigative Division, Postal Inspection
Service, and Illinois State Police.


               IG Testifies on Amtrak’s Financial Condition
June 20
   The Inspector General testified regarding Amtrak’s financial situation before
the Senate Transportation Appropriations Subcommittee. The IG discussed
Amtrak's unexpected loss of access to its short-term credit facility; its loan-guar-
antee application through the Railroad Rehabilitation and Improvement
Financing Program; and its need for long-term capital investment to sustain a
national, intercity passenger rail system. FRA Administrator Rutter and Amtrak unexpectedly lost access to its short-term
Assistant Secretary for Budget and Programs McLean also testified.                   credit facility, the Inspector General testified.


           Airline Employee Jailed for Stealing Aircraft Parts
June 20
   Alvin Randolph, an American Eagle airline employee at the Port Columbus
(OH) International Airport was sentenced by a U.S. District Court judge in
Columbus to spend 7 months in jail and pay $36,392 in restitution for falsify-
ing certification for aircraft parts and violating Federal firearms charges. He was
arrested by special agents of OIG and the Bureau of Alcohol, Tobacco, and
Firearms after selling numerous stolen aircraft parts to an undercover agent in
exchange for cash and machine guns. Randolph claimed to an undercover
agent that he could obtain a variety of stolen aircraft parts along with docu-
ments falsely certifying the parts met the highest quality standards. One of the          Defendant Lochhead falsely certified that
items was an American Airlines cockpit/cargo key, which Randolph sold after               aircraft life rafts such as this one had been
                                                                                          repaired and were safe for use.
the 9–11 terrorist attacks. False statements regarding the origin of aircraft parts
are a longstanding problem in the aviation industry and a significant threat to           Photo courtesy of OIG
                                                                                          Criminal Investigative Region 2
aviation safety.

         Texas Man Fined for Faking Aircraft Life Raft Repairs
June 21
   Steve H. Lochhead of McKinney, TX, was ordered by a U.S. District Court
judge in Sherman, TX, to pay $2,000 in fines and restitution of $3,413 for
falsely certifying to the FAA that repairs had been made to life rafts used as sur-


                                                                                          a c t i v i t i e s                             33
                                     a c t i v i t i e s

                                     vival gear on aircraft. Lochhead is part owner, chief inspector, and shop super-
                                     visor of C&M Marine, Inc. of Addison, TX, an FAA-certified repair station spe-
                                     cializing in repairs to life rafts, life vests, and other life-saving equipment used
                                     on aircraft. FAA was alerted that life rafts and other equipment were returned
                                     to customers by C&M with certificates indicating they were safe for use when
                                     they had not been repaired. Lochhead pleaded guilty in March 2002. OIG and
                                     the FBI conducted the investigation with assistance from the FAA.


                                                         Former Pilot Jailed 18 Months for
                                                            Forged Medical Certificate
                                     June 26
                                        Jarod K. Reynolds of St. Petersburg, FL, was sentenced in U.S. District
                                     Court in Tampa, FL, to 18 months in jail for using a forged airman's medical
                                     certificate. Reynolds forged the signature of an FAA-certified medical examin-
                                     er who failed him on his medical examination and used the fraudulent docu-
                                     ment in attempting to rent a private aircraft in January 2000. Reynolds was an
                                     airline transport pilot and flight instructor whose license was revoked by the
                                     FAA in 1993 for lying on his medical application. He pleaded guilty in April.
                                     OIG conducted the investigation with assistance from the FAA.

                                       Letter Response to President of National Air Traffic Controllers
                                                    Association on FAA's Cru-X System
                                     July 1
                                        At the request of the National Air Traffic Controllers Association
                                     (NATCA), we conducted a limited review of the computer security and oper-
                                     ational stability of FAA's Cru-X system. Cru-X is designed to collect informa-
                                     tion on payroll, personnel, training, and quality assurance at about 400 air
                                     traffic control facilities. We found no major vulnerabilities. FAA already was
                                     taking steps to address NATCA concerns with computer security and securing
                                     personnel and payroll information within the Cru-X system by placing it on
                                     dedicated computers with enhanced security. FAA's planned conversion to an
                                     Oracle database also should give Cru-X better operational stability.


34   Semiannual Report to Congress
                     Stewardship of Surface Transportation Funds
     As part of the ramp up for congressional reau-                                    Transportation Fraud Prevention, May 14–16




                                                                                   St. Louis Post-Dispatch
 thorization hearings regarding the Transportation                                     in St. Louis, MO. Featured speakers included
 Equity Act for the 21st Century (TEA–21), the                                         Secretary Mineta, the IG, FHWA Admini-
 Inspector General testified September 19 on                                           strator Mary Peters, and FTA Administrator
 transportation-project delivery under the act at a                                    Jenna Dorn.
 hearing of the Senate Committee on Environment                                            In his keynote address, Secretary Mineta
 and Public Works. TEA–21 provided record levels                                       stressed the need for vigilance in oversight
 of funding for highways and transit — almost $40                                      and inspection efforts. “When any program
 billion this year. With that amount of money, over-                                   increases significantly in funding as the
 sight becomes more significant, as do fraud pre-                                      Federal-aid program did under TEA–21 —
 vention and detection.                                                                up 40 percent nationally — the risk of waste
     In his testimony, the Inspector General recom-                                    and mismanagement increases,” he said.
 mended specific steps to improve management                                           “We have a responsibility to accurately and
 and oversight and facilitate project delivery on                                      completely estimate, and disclose, costs at
 budget, on time, and free from fraud. The steps                                       the onset of all projects, as well as to moni-
 include: (1) refocusing FHWA's oversight to ensure                                    tor progress and expenditures during the life
 that state programs operate effectively and proj-                                     of those projects.”
 ects of national significance are well managed; (2)                                       Mineta called for improved coordination
 fortifying state programs by ensuring adequate                                        between state and Federal partners. The
 resources for oversight and fraud prevention; (3)                                     Federal Government must rely on its state and
 promoting the use of proven project-management                                        local partners who let the contracts, and
 tools; and (4) improving efforts to prevent fraud,                                    “together we must be the guardians at the gate
 waste, and abuse.                                                                     to eliminate the potential for fraud,” he said.
     In an earlier hearing before the House Trans-                                         The Inspector General said we have been
 portation Subcommittee on Highways and Transit                                        working closely with state DOTs, Inspectors
 on May 1, the Inspector General testified that FTA                                    General, and auditors, as well as FTA and
 needs to improve its spot-checking of cost and                                        FHWA to increase awareness of fraud pre-
 schedule estimates, and FHWA needs better data                                        vention and detection. Since the first con-
 to refocus its oversight efforts, and it requires staff                               ference in 2000, over 10,500 Federal, state,
 with project- and financial-management skills.                                        and local officials have received fraud
     A key component of OIG's initiative involving the                                 awareness briefings.
 stewardship of surface funds is the detection and prevention of      We co-sponsored the conference with the American
 fraud, such as collusion, bid rigging, and kickbacks. More than   Association of State Highway and Transportation Officials, the
 300 participants gathered from 46 states to attend our second     American Public Transportation Association, FHWA, FTA, and the
 joint National Conference on Highway Construction and Public      Missouri Department of Transportation.



     Flight School Owner in NY Pleads Guilty to Defrauding FAA
July 9
   In charges brought by OIG and FBI special agents in a post-9–11 investiga-
tion, Ahmed Abdulla Elashmouny, owner and president of S&A Aviation, Inc.,
doing business as Delta Aviation Flight Academy in Farmingdale, NY, pleaded


                                                                                                             a c t i v i t i e s    35
                                          a c t i v i t i e s

                                                                               guilty in U.S. District Court in Central
Newsday




                                                                               Islip, NY, to multiple fraud charges.
                                                                               Elashmouny, an Egyptian citizen, pleaded
                                                                               guilty to charges of misrepresenting him-
                                                                               self as a U.S. citizen and as a certified
                                                                               instrument flight instructor on forms sub-
                                                                               mitted to the FAA. He also pleaded guilty
                                                                               to filing an insurance claim on a plane that
                                          had crashed before it was insured, to fraudulently using a stolen credit card
                                          account number to obtain aviation fuel, and to using false credit card authori-
                                          zation codes to obtain aircraft equipment and computer products. Elashmouny
                                          remains in custody pending sentencing in November. FAA assisted in the inves-
                                          tigation.


                                              FAA Orders Emergency Revocation of Mechanic's Certificate
                                          July 12
                                             FAA ordered the emergency revocation of the mechanic's certificate of Jim
                                          Hays, a mechanic for the Flying Machine Factory, Hayward, CA, after finding
                                          that Hays was conducting unauthorized annual inspections on general avia-
                                          tion aircraft. Hays also had forged the names of two inspection authorization
                                          mechanics on airframe and engine maintenance records. Hays is not an
                                          authorized inspection mechanic and is not permitted to sign engine mainte-
                                          nance records.

                                                      Garrison Protective Services Fined $50,000 for
                                                                Airport-Security Violations
                                          July 12
                                             Garrison Protective Services of Florida, Inc., was fined $50,000 by a U.S.
                                          District Court judge in Miami, FL, for falsely certifying to the FAA that it had
                                          completed required background checks on more than 100 airport-security
                                          screeners and cargo handlers holding security positions at Miami International
                                          Airport. Garrison must submit to a financial and security-program audit by a


36        Semiannual Report to Congress
court-approved auditor and follow any recommendations. The investigation
was conducted jointly by OIG and the Miami-Dade Aviation Department
with assistance from the FAA.

              USCG Contractor Debarred for Improperly
                    Inspecting Helicopter Parts
July 19
   High Quality Machine Shop and owners Theresa Gabriel and Carlos
Chavez of San Antonio, TX, were debarred from Federal contract work for
3 years for supplying the Coast Guard with critical helicopter parts that were
not properly inspected. The company was ordered to pay a $5,000 fine and
$1,476 in restitution by a U.S. District Court judge in Raleigh, NC, after
pleading guilty with the owners to violating the Aircraft Safety Act.

          MARAD Employee Fined $4,000 for Accepting Bribe
July 19
   John A. Harris, a MARAD marine surveyor, was fined $4,000 by a U.S.
District Court judge in Jacksonville, FL, for accepting a bribe in exchange for
confidential bid information on a DOT contract. In return for NASCAR tick-
ets valued at approximately $1,000, Harris provided confidential information
related to repair work on a MARAD vessel to an undercover Federal agent pos-
ing as a U.S. Government contractor. Harris pleaded guilty in April. DOT is
responsible for repairs on the vessel, with financial assistance provided by the
Department of Defense. The investigation was conducted by OIG, DCIS, and
the FBI.

Report Issued on FHWA Actions to Recover Excess Reserves from
      Central Artery Owner-Controlled Insurance Program
July 22
  We issued our report evaluating FHWA actions to correct deficiencies in
the Owner-Controlled Insurance Program (OCIP) of the Central
Artery/Tunnel Project, Boston, MA, identified in our May 1999 report. We
found that the project reduced the OCIP trust by $203 million but contin-
ued to maintain a higher-than-needed balance. We also found that FHWA
did not issue a policy to control OCIP as directed by Congress. As a result of
our audit, the project removed an additional $133 million in excess Federal
funds from the OCIP trust for use in other transportation projects in
Massachusetts. The project is currently working to complete an independent
audit of its insurance trust to confirm account balances. FHWA issued its final
OCIP policy in October.


                                                                                   a c t i v i t i e s   37
                                                     a c t i v i t i e s

                                                                   Trucking Firm and President Sentenced in
                                                                          Hours-of-Service Violations
                                                     July 24
                                                        L&M Trucking Corp., Inc. and its president, John Michaud of St. Agatha,
                                                     ME, were sentenced in U.S. District Court in Bangor, ME, for their role in
                                                     accepting fraudulent hours-of-service records from their drivers. Now bankrupt,
                                                     L&M was ordered to relinquish its DOT certificate of operating authority for
                                                     knowingly accepting falsified hours-of-service records. Michaud was fined
L&M Trucking lost its DOT certificate to
operate for accepting fraudulent hours-of-service    $2,000 for defacing toll receipts and other trip documents that would have con-
records from its drivers.                            tradicted the false records. The company and Michaud pleaded guilty in April.

                                                                   Coast Guard Employee to Pay $80,000 for
                                                                            Stealing Federal Funds
                                                     July 24
                                                        Yolanda Davis, a former civilian employee with the U.S. Coast Guard
                                                     (USCG), was ordered by a U.S. District Court judge in New York, NY, to pay
                                                     $80,000 in restitution and spend 10 months confined at home for stealing
                                                     Government money. Davis, who was fired, served since 1993 as a legal instru-
                                                     ment examiner at the USCG's Regional Examination Center in New York City,
                                                     where from 1997 through 2000 she stole between $70,000 and $120,000 in
                                                     fees she collected from people seeking merchant mariner licenses. The case was
                                                     investigated by the OIG and the Coast Guard Investigative Service.

                                                          Former DOT Security Guard Pleads Guilty to Misusing ID
                                                     July 29
                                                        Koshin Abdullahi of Everett, MA, formerly a contract security guard at
                                                     RSPA's Volpe National Transportation Systems Center in Cambridge, MA,
                                                     pleaded guilty in U.S. District Court in Concord, NH, to misusing official
                                                     identification. Abdullahi failed to surrender his DOT identification card when
                                                     he resigned in 1999. In May 2002, he displayed the identification card and a
                                                     constable's badge to police, claiming that he was a DOT law enforcement offi-



38                   Semiannual Report to Congress
                Border Preparations for Mexican Long-Haul Carriers
 At a joint hearing of the Senate Commerce                                                        long-haul operating authority will determine the




                                                                           The Washington Times
 Subcommittee on Surface Transportation and the                                                   size of the workforce and facilities needed to
 Senate Transportation Appropriations Subcommittee                                                provide sufficient coverage, and (2) according
 on June 27, the Inspector General testified regarding                                            to our work, the more likely the chance of
 the Federal Motor Carrier Safety Administration's                                                inspection, the better the condition of the
 (FMCSA) progress in readying our southern border to                                              Mexican vehicles entering the U.S.
 open to Mexican long-haul carriers. He said that                                                    Our audit report recommended that FMCSA
 FMCSA had made headway in hiring and training




                                                                                                  Photo by Trans Pixs
 inspectors, establishing inspection facilities, and
 developing safety processes and procedures to
 ensure the safety of Mexican long-haul carriers. This
 testimony coincided with the Inspector General's
 audit report, released 2 days earlier, which was man-
 dated by the FY 2002 DOT Appropriations Act.
 Prompted by our 2001 audit report on motor carrier
 safety at our border with Mexico, Congress requested
 in the act that we check FMCSA's progress in estab-
 lishing basic safeguards before opening the U.S.-                                                prepare weekly status reports on the completion
 Mexico border to long-haul commercial traffic.                                                   of outstanding safety requirements and periodic
     During the reporting period, we visited each of 27                                           reports reevaluating inspection staff and facility
 border crossings twice, checking to ensure that new                                              requirements at each border crossing.
 inspector positions were filled, inspectors were ade-                                               Our efforts so far have focused on verifying
 quately trained, each crossing had adequate space to                                             that FMCSA has staff, facilities, equipment, and
 inspect and place vehicles out of service, and a data-                                           procedures in place. The key to success once
 base was developed to enable safety monitoring of                                                the border opens, the Inspector General testi-
 carriers and drivers.                                                                            fied, will be how effectively these resources are
     The Inspector General testified that two factors will                                        used and procedures are implemented. We will
 likely determine the ultimate effectiveness of the                                               be monitoring this during congressionally man-
 safeguards: (1) The number of carriers that apply for                                            dated follow-on audits.


cer. Sentencing is scheduled for October. Measures are being implemented at
the Volpe Center to prevent similar incidents in future. The case was investi-
gated by OIG, with assistance of local police.

  Three Moving Company Owners Banned from the Industry for
  Defrauding Customers; Moving Company Owner Admits Guilt
July 31
   Three owners of five unlicensed household goods moving companies in the
New York City metropolitan area, pleaded guilty in New York City Criminal
Court in Queens to state charges of defrauding more than 100 customers. As
a condition of the plea agreement, the defendants agreed to dissolve their busi-



                                                                                                                        a c t i v i t i e s       39
                                     a c t i v i t i e s

                                     nesses, not have any future involvement in the moving industry, and pay
                                     $119,500 in civil penalties assessed by FMCSA. The defendants, who owned
                                     All State Moving, On Budget Van Lines, Eilid Moving and Storage, Online
                                     Moving and Storage, and In & Out Moving and Storage, gave customers arti-
                                     ficially low estimates for household goods moving services and then threatened
                                     to withhold their possessions unless they paid bills 300–500 percent higher
                                     than the estimates.
                                         Ronit Mantoza of Queens, NYC, was sentenced to 3 months in jail; her hus-
                                     band Daniel Mantoza, received a 2-month sentence. The third defendant,
                                     Morad Alfar, received 3 months in jail. They were ordered to return all cus-
                                     tomer property still in their possession and forfeit seized assets for restitution.
                                     The case was investigated by a task force comprising the New York Police
                                     Department, OIG, New York State DOT, and the Queens County District
                                     Attorney’s Office, with assistance from FMCSA.
                                         In an unrelated case, Barry Minsky, New York City, owner of four house-
                                     hold goods moving companies, pleaded guilty on July 31 in U.S. District
                                     Court in Brooklyn to conspiracy charges for repeatedly luring customers with
                                     low-ball estimates only to later threaten to hold their goods hostage unless
                                     large additional payments were made. Minsky's companies included Official
                                     Moving and Storage, based in Brooklyn. The charges arose from an investiga-
                                     tion by OIG and the FBI, assisted by FMCSA. Sentencing is scheduled for
                                     November 2002.

                                                 Norwegian Cruise Lines Fined $1.5 Million for
                                                         Discharging Wastes into Sea
                                     July 31
                                        Norwegian Cruise Lines was fined $1.5 million by a U.S. District Court
                                     judge in Miami, FL, after pleading guilty to discharging oily bilge wastes into
                                     international waters and repeatedly lying to the Coast Guard about the prac-
                                     tice over a period of years. The discharges were made from the SS Norway.
                                     The cruise line was also ordered to make community service payments for spe-
            Photo by Stockyard       cific environmental service projects in south Florida and to take part in a 3-



40   Semiannual Report to Congress
year supervised probation, which included remedial steps to prevent or reduce
the likelihood of future illegal acts. The investigation was conducted by OIG,
USCG, EPA's Criminal Investigations Division, the FBI, Miami-Dade Police
Department, and Florida's Department of Environmental Protection.

           Former FAA Employee Pleads Guilty to Misusing
                     Government Travel Card
August 15
   Joyce A. Harris of Arlington, VA, a former FAA employee, pleaded guilty in
U.S. District Court in Alexandria, VA, to felony charges of using a Government
travel card for personal purchases and using another person's social security
number. Harris was arrested March 11, after making $33,565 worth of person-
al charges on her Government travel card and writing more than $57,000 in
fraudulent checks to pay the card's balance. She was also arrested on charges of
using another person's social security number to obtain credit in order to pur-
chase a new car. She faces up to 10 years in prison and a fine when she is sen-
tenced in November. OIG investigated this case with the FBI.

                          FAA’s Airport Lease Data
August 15
   We issued our audit report concerning FAA’s system for maintaining data
on its operating leases with airports. Our analysis showed that the FAA data
were incomplete and inaccurate. For example, 36 percent of FAA’s operating
leases were terminated or had expired, while updated and new leases were not
in the databases. Although operating leases are not “material” to FAA’s finan-
cial statements, reliable information is still important in order to manage the
leases and ensure accurate budgeting. We recommended that FAA improve its
oversight of the data by establishing internal controls over entering, updating,
approving, and validating lease data. Oversight would also include periodical-
ly reconciling lease data with official contract documents to ensure accuracy
and completeness. FAA officials agreed to correct the deficiencies.

  Freight Forwarder Pleads Guilty to Hazardous-Waste Violations
August 15
   Universal Freightways, Inc. (UFI), a Miami, FL, freight forwarder, pleaded
guilty in U.S. District Court in Miami to illegally storing hazardous wastes,
including dangerous corrosives and flammables such as hydrochloric acid, sul-
furic acid, and toluene. UFI admitted that it failed to follow Federal regulations
regarding the proper transportation or disposal of hazardous waste and stored



                                                                                     a c t i v i t i e s   41
                                     a c t i v i t i e s

                                     the waste at a facility that did not have the required permit. The investigation
                                     was conducted by OIG, EPA’s Criminal Investigations Division, and the Dade
                                     County Environmental Task Force.

                                              Three of Four Defendants Plead Guilty in SUPs Case
                                     August 19
                                        Thomas, Naomi, and Bradley Coffee (father, mother, and son, respectively)
                                     pleaded guilty in U.S. District Court in Dayton, OH, in connection with the
                                     attempted sale of suspected unapproved aviation parts (SUPs) to undercover
                                     Federal agents. The three defendants, along with Jeremy Coffee (another son)
                                     and The Centerville Marketing Group, of Centerville, OH, were indicted in
                                     Philadelphia, PA, in July 1999 for conspiracy, mail and wire fraud, and traf-
                                     ficking in counterfeit goods or services. The Coffees were selling substandard,
                                     untested, or counterfeit aircraft parts, primarily avionics antennas, that have
                                     military and civilian applications. Bradley and Thomas Coffee subsequently
                                     pleaded guilty to conspiracy to commit mail and wire fraud, and Naomi Coffee
                                     pleaded guilty for failing to report a felony. Sentencing is anticipated in January
                                     2003. Prosecution of Jeremy Coffee remains pending. This case was investi-
                                     gated by the “Operation Hangar Bay” Task Force, comprising OIG, Naval
                                     Criminal Investigative Service, Air Force Office of Special Investigations,
                                     DCIS, and the FBI.


                                     Subcontractor Agrees to $135,000 Settlement in False-Claims Case
                                     August 22
                                        William Sperbeck of Wellesley, MA, during the third week of his trial for
                                     civil fraud in U.S. District Court in Boston, agreed to pay the U.S.
                                     Government $135,000 for fraudulent claims he made against a contract
                                     administered by RSPA’s Volpe Center. Sperbeck was the sole proprietor of
                                     Logistics Information Systems (LIS) in Wellesley, a now-defunct software-
                                     development company that was a subcontractor on a Volpe Center prime con-
                                     tract. LIS billed the prime contractor for work performed by employees who


42   Semiannual Report to Congress
               TSA’s Progress in Meeting Management Challenges
    As the Transportation Security Admini-                                                                          Transportation Appropriations Subcom-




                                                                                          The Wall Street Journal
 stration (TSA) continued to build from the                                                                         mittee, the IG testified that TSA would
 ground up, we cited areas of concern in                                                                            need to hire 7,000–8,000 passenger
 testimonies before Congress and in advi-                                                                           screeners each month from July through
 sory memos to TSA and the Department.                                                                              October to meet the November 19 dead-
 The areas were budget, cost control                                                                                line for a federalized screening system.
 issues, and TSA's progress toward the                                                                              By December 31, TSA and its contractor
 mandated deadlines for federalizing the                                                                            must install and have operational at least
 screener workforce and screening 100                                                                               900 explosives detection systems and
 percent of checked baggage.                                                                                        about 5,800 trace machines. He also said
 APRIL                                                                                                              that TSA needs to do more to build in cost
     Testifying before the House Transpor-                                                                          control mechanisms.
 tation Appropriations Subcommittee on                                                                              JULY, AUGUST
 April 17, the Inspector General advised that                                                                          Principal Assistant Inspector General for
 to implement the Aviation and Transpor-                                                                            Auditing and Evaluation Alexis M. Stefani
 tation Security Act, TSA estimated it would                                                                        testified that TSA is working diligently to
 need a $4.4 billion supplement in addition                                                                         meet its deadlines, at hearings before the
 to the $2.4 billion already funded for FY                                                                          House Transportation Aviation Subcom-
 2002. TSA’s estimates of the workforce it                                                                          mittee on July 23 and the House Com-
 would need, he said, had grown from                                                                                mittee on Government Reform on August 7.
 30,000 to 40,000 to 60,000 and could                                                                                  In both testimonies, Ms. Stefani said
 exceed 70,000. The IG said that TSA needs                                                                          TSA is having problems hiring screeners in
 to clarify its budgetary requirements for FY                                                                       major cities. Delays are due to the large
 2002 and build in cost efficiencies, such as                                                                       number of people who failed to show up
 using part-time screeners, controlling pre-                                                                        for interviews or failed English proficiency
 mium pay, and effecting contract over-                                                                             and aptitude during assessment.
 sight. He also cited a lack of controls over                                                                          Ms. Stefani said TSA faces significant
 third-party screener contracts.                                                                                    challenges in overseeing the large number
       We identified opportunities to control   train, and deploy a passenger-screening                             and dollar volume of new contracts.
 costs, and TSA responded by clarifying         workforce, we suggested ways to improve                             Contracts for deploying a Federal screener
 how part-time employees will be used in        screener training. As a result, TSA assigned                        workforce and screening all checked bag-
 the screener workforce, ensuring salaries      its own instructors to back up contract                             gage total over $2 billion; contracts with
 are commensurate with position responsi-       instructors; added ethics and conflict reso-                        current screening companies are expected
 bilities and reducing the costs of a screen-   lution to basic screener training; and incor-                       to cost about $1.6 billion. Because TSA is
 er background check from $2,500 to             porated hands-on training in the curricu-                           just coming into existence, it does not yet
 $200.                                          lum for all airports.                                               have an established infrastructure that
 MAY                                            JUNE                                                                provides controls for monitoring contractor
 During our audit of TSA’s efforts to hire,       In a hearing before the House                                     costs and performance.


did not have the education or experience the contract specified. Employees
were also paid significantly less than figures that LIS submitted during con-
tract negotiations.


                                                                                                                    a c t i v i t i e s                       43
                                     a c t i v i t i e s

                                        Texas Trucking Companies Ordered to Repay $5.5 Million to
                                               State; Owners Jailed in Motor-Fuel Tax Scheme
                                     August 23
                                        Bruce N. Nicholson and Bryan L. Nicholson, owners of several trucking
                                     companies and convenience stores located in the Lubbock, TX, area, were sen-
                                     tenced in U.S. District Court in Lubbock for their involvement in a scheme to
                                                avoid paying state motor-fuel excise taxes on several million gallons
                                                of fuel that they purchased and resold in Texas. Bruce Nicholson
                                                was sentenced to 42 months in prison and Bryan Nicholson was
                                                sentenced to 18 months after they pleaded guilty to mail fraud and
                                                wire fraud. Their sentences will be followed by 36 months of super-
                                                vised released. The Nicholsons’ associated companies — Allstar
                                                Trading, Inc., J&R Mercantile, Ltd., Rodgers Oil Co., and SunWest
                                                C-Stores Corp. — also pleaded guilty to wire and mail fraud and
                                                were ordered to pay $5,553,176 in restitution to the State of Texas.
                                                    The scheme involved the purchase of motor fuel falsely stated to
                                                be for export resale to the Navajo Indian Reservation, which is
            Photo by Stockyard
                                     exempt from state motor-fuel taxes. The Nicholsons then utilized their truck-
                                     ing companies to create false driver's logs and transport manifests, making it
                                     appear as though the fuel was being transported for export. Instead, the fuel
                                     was being used by their trucking companies and sold in their convenience
                                     stores without payment of the required state motor-fuel taxes. This case was
                                     investigated jointly by OIG, the Texas State Comptroller's Office, and the FBI.

                                           Officials of Two Ohio Highway-Construction Companies
                                                             Sentenced for Fraud
                                     August 27
                                       James R. Sabatine, owner of Hardrives Paving & Construction, Inc.,
                                     Youngstown, OH, was sentenced in U.S. District Court in Cleveland, OH, to
                                     5 months in jail, 2 years' supervised release, $18,832 in restitution, and a




44   Semiannual Report to Congress
$7,700 fine for racketeering charges, including bribery and mail fraud. Sabatine
pleaded guilty in August 2001 to bribing Mahoning County, OH, officials in
order to maintain favored status in winning paving contracts. He also admitted
to submitting fraudulent invoices for asphalt that was never applied. Together
with Hardrives foreman Christ Minerd, Sabatine conspired with Renee Smith,
owner of Tone Crack Seal & Supply, of Youngstown, in a scheme where Tone
Crack served as the minority front company through which Hardrives won
contracts to do work.                                                              A bribery scheme to win paving contracts
   On August 12, Smith was sentenced in U.S. District Court in Cleveland for       resulted in jail time and fines for two Ohio
                                                                                   construction company owners.
fraudulently obtaining four highway paving contracts worth more than
$515,000 that had been set aside for minority businesses. She was sentenced to     Photo by Trans Pixs
5 months in jail, 2 years’ supervised release, and a $400 fine.
   Hardrives foreman Christ Minerd previously admitted that he took part in
the conspiracy with Smith. He was ordered in April by a U.S. District Court
judge in Cleveland to pay $8,750 in restitution and spend 1 year on probation
for taking part in a scheme to submit fraudulent invoices to Mahoning County
for asphalt that was never produced or used. OIG investigated the case with the
FBI and the Department of Labor OIG.




                                                                                             The Washington Post
 Our special agents participated in      had previous felony convictions for
 security sweeps at 17 airports dur-     such crimes as assaults, threats,
 ing the 6-month reporting period,       and weapon violations. Special
 resulting in the arrests of 385         agents from the Immigration and
 employees who had illegally             Naturalization Service, Social
 obtained badges giving them             Security Administration OIG, and
 access to secure areas of the air-      the FBI, as well as local law
 port. The largest operations took       enforcement agencies, also took
 place at the three Washington, DC,      part in the sweeps.
 metropolitan area airports, where
 96 were arrested; the three Los
 Angeles area airports, 88 arrested;
 Houston Bush Intercontinental
 Airport, 70 arrested; and Denver
 International Airport, 46 arrested.
                                         Photo by Trans Pixs




 Most of the employees were
 charged with falsifying their securi-
 ty badge applications and using
 fraudulent immigration documents
 and social security numbers. Some




                                                                                   a c t i v i t i e s                            45
                                                     a c t i v i t i e s

                                                          SabreTech Fined $500,000 in ValuJet Crash Resentencing
                                                     August 27
                                                        SabreTech, Inc., a now-decertified FAA repair station in Miami, FL, was
                                                     ordered by a U.S. District Court judge in Miami to pay a $500,000 fine and
                                                     serve 3 years on probation for its role in the 1996 crash of ValuJet Flight 592
                                                     in the Everglades, which killed 110 people. SabreTech was previously convict-
                                                     ed on 9 counts of hazardous-materials violations, fined $2 million, ordered to
                                                     pay $9 million in restitution, and put on 3 years' probation. The violations
                                                     involved SabreTech employees who illegally placed uncapped oxygen genera-
                                                     tors on the aircraft, which according to the National Traffic Safety Board, set
                                                     the plane on fire, causing the crash. In January 2002, the 11th Circuit Court
                                                     of Appeals overturned eight of the counts but affirmed the conviction on one
                                                     count of failing to train employees how to handle hazardous materials. The sen-
                                                     tence is the maximum allowed under Federal guidelines. This investigation was
                                                     conducted jointly by OIG, the FBI, and EPA's Criminal Investigations
                                                     Division.
Two southern construction firms pleaded
guilty to rigging bids to win federally funded
work on the Blue Ridge Parkway.                                  Construction Companies Fined $200,000 and
                                                                 $100,000 After Pleading Guilty to Bid Rigging
                                                     September 10
                                                        Two construction companies, Taylor & Murphy Construction Co., Inc. of
                                                     Asheville, NC, and Maymead, Inc. of Mountain City, TN, pleaded guilty in
                                                     U.S. District Court in Asheville to making false statements in connection with
                                                     $5.09 million worth of federally funded construction projects on the Blue
                                                     Ridge Parkway. Both companies falsely certified to FHWA that they did not
                                                     disclose prices to potential bidders on two highway projects before competitive
                                                     bidding began. Investigation revealed they had, in fact, shared pricing infor-
                                                     mation with another firm. Taylor & Murphy were fined $200,000 and
                                                     Maymead was fined $100,000. FHWA is considering debarring the companies
                                                     from future Federal contracts.




46                   Semiannual Report to Congress
  DOT's Use of U.S. Treasury’s Miscellaneous Receipts Accounts
September 12
   Our audit report showed that DOT obtained about $49 million without
authorization from U.S. Treasury “miscellaneous receipts” accounts between
FY 1998 and 2001. We found that DOT spent about $37 million to finance
four projects to renovate office space and develop financial-management sys-
tems. No DOT employee gained personally from spending the Treasury’s
money. The DOT Assistant Secretary for Budget and Programs and Chief
Financial Officer concurred with our recommendations, agreeing that the $49
million should be returned to the Treasury. DOT has already returned about
$12.3 million and is working on recording the remaining $37 million against
DOT fiscal year appropriations.

            Owners of FAA Repair Station to Pay $6,000 in
                    Restitution for Lying to FAA
September 12
   Mohammad Alishahi and Masoud Alishahi, co-owners of Brothers Aero
Services Company (BASCO), Opalocka, FL, were sentenced in U.S. District
Court in Miami, FL, after pleading guilty to making false statements to the
FAA. BASCO is a FAA-certified repair station authorized to overhaul and
make repairs to aircraft propellers commonly used on small aircraft such as
Pipers and Cessnas. The charges, filed in April 2002, alleged the Alishahis
failed to perform a critical propeller blade-strengthening procedure in 1998
and, in order to conceal the faulty work, falsified FAA-required documents to
indicate repairs were completed. Each was sentenced to restitution, 6 months'
home detention, and 5 years’ probation. FAA revoked BASCO's repair-station
certificate. OIG investigated this case with assistance from the FAA.

                      TSA’s Cargo Security Program
September 17
    The Principal Assistant Inspector General for Auditing and Evaluation tes-
tified regarding aviation cargo security in a closed hearing before the Senate
Committee on Commerce, Science, and Transportation. She said that TSA
concurred with the 14 recommendations included in our audit of FAA’s
Cargo Security Program and is taking action to improve the program. The
audit report was subsequently issued on September 19. Because the report
contains sensitive security information, it will be up to TSA to determine what,
if any, information will be released publicly.




                                                                                   a c t i v i t i e s   47
                                     a c t i v i t i e s
                                          Review of NHTSA’s Progress in Implementing Strategies to
                                                       Increase the Use of Seat Belts
                                     September 18
                                         We publicly released our review of NHTSA’s progress in implementing
                                     strategies to increase the use of seat belts. Over the last 8 years, the national
                                                     rate of seat belt use has increased only 1 percent a year, after
                                                     increasing from 14 percent in 1984 to 66 percent in 1993.
                                                     Mandatory-use laws are in effect in 49 states and the U.S. ter-
                                                     ritories. Unless additional states enact and enforce primary
                                                     enforcement laws, we see no basis for increases above the recent
                                     trend. Maintaining even the modest gains of the last 8 years will depend on
                                     how aggressively and consistently NHTSA and the states implement high-pro-
                                     file enforcement activities such as “Click It or Ticket.” We recommended that
                                     NHTSA: (1) direct its regional offices to develop a detailed, time-phased plan
                                     encouraging each state to implement successful strategies for increasing seat
                                     belt use and (2) continue to emphasize high-profile law enforcement activities.
                                     NHTSA concurred and has begun to take action.

                                              Coast Guard’s User Fees for Vessel Documentation
                                     September 18
                                        Our audit regarding the user fees that the U.S. Coast Guard charges the
                                     public for vessel-documentation services found that the Coast Guard’s revenue
                                     from these fees exceeded the cost of providing vessel documentation for fiscal
                                     years 1999, 2000, and 2001. By law, the Coast Guard is required to charge user
                                     fees to recover the cost of providing vessel documentation, which is a form of
                                     national registration of ships and other vessels. However, the Coast Guard is
                                     not authorized to keep revenue above the cost to provide vessel-documenta-
                                     tion services. The Coast Guard could not support the basis it used to set the
                                     initial fees in 1994, nor had it updated the fees even though operations had
                                     been streamlined. Coast Guard estimated that revenues exceeded budgeted
                                     costs by $1.5 million and returned the excess to the U.S. Treasury.
                                        Coast Guard agreed to develop procedures for providing actual costs and
                                     adjust vessel-documentation fees as necessary. It also hired a consultant to
                                     update its cost-accounting system. The audit was performed at the request of
                                     Representative Corrine Brown, Ranking Minority Member of the House
                                     Transportation Subcommittee on Coast Guard and Maritime Transportation.


48   Semiannual Report to Congress
               Parts Broker Convicted in Kickback Case
September 20
   Roger Sickler, owner of RTS Services, Inc., an aircraft parts broker located
in Hurst, TX, was found guilty of money laundering by a jury in U.S. District
Court in Ft. Worth, TX. Sickler’s company was found guilty of money laun-
dering, conspiracy, and mail fraud. Sickler used his company and a subsidiary
company, RTS Rework, an FAA-certified repair station, to defraud customers
on aircraft repair work. The scheme involved paying kickbacks to an employee
of an avionics company, Kollman, Inc., of Merrimack, NH, to refer work to
RTS. RTS did not work on the parts, instead farming the work out to other
repair stations and then charging highly inflated prices for the repairs, which the
Kollman employee authorized as necessary. Some of these bills were for repairs
to FAA and USCG aircraft. Sentencing has been set for November 2002. FAA
has revoked the repair station license for RTS Rework, Inc. This case was inves-
tigated jointly by OIG, DCIS, and the FBI.

     Illinois Construction Company Agrees to Pay $750,000 to
                 Settle Highway Contract-Fraud Case
September 20
    Curran Contracting Co., of Crystal Lake, IL, paid $637,500 to the State of
Illinois and agreed to a 9-month suspension from state contracting to settle a
Federal civil action related to overcharges for work on Federally funded high-
way-construction projects. The company also paid $112,500 to a whistleblow-
er, as provided for in the False Claims Act. A former Curran employee, the
whistleblower provided information indicating that Curran had overbilled the
state for asphalt that was never provided. OIG’s subsequent investigation found
the information to be accurate. A criminal investigation was initiated and is
continuing by OIG and the FBI.

        Annual Review of DOT Information-Security Program
September 27
   Our annual review of the Department's information-security program found
the Department made a strong commitment to improve information security
in FY 2002 and enhanced its network defense against intrusions from the
Internet. However, the Department needs to make more progress to secure


                                                                                      a c t i v i t i e s   49
                                                   a c t i v i t i e s
                                                            individual systems operating on DOT’s private networks. Only 22 per-
                                                            cent of DOT mission-critical systems were reviewed and certified for
                                                             adequate security by September 2002.
                                                                 The Department’s Operating Administrations (OAs) have not
                                                             effectively implemented computer-security guidance issued by the
                                                            Chief Information Officer. For example, OAs still maintain unautho-
                                                              rized computer connections to DOT’s private networks, and back-
                                                                  ground checks on contract employees are still lacking. Until it is
                                                                  clear that there are management and budget consequences, the
                                                                  OAs are likely to continue in this manner.
     Only 22 percent of DOT’s mission-critical        Our report also raised concerns about FAA’s lack of progress in protecting
     information-security programs received a
                                                   infrastructure-critical systems and facilities that support air traffic control oper-
      security certification by September 2002.
                                                   ations. We concluded that the DOT information-security program should
                                                   remain categorized as a “material weakness” and requires concerted attention
                                                   by senior management. The Department concurred and is taking action in
                                                   response to our report.

                                                                          Security of DOT Web Systems
                                                   September 30
   We examined 175 DOT public websites and          Our annual report on the security of the Department's web systems found
 found that 21 vulnerabilities were among the
      FBI’s “20 most critical Internet security    DOT made progress in FY 2002 to better protect the public’s privacy, cor-
                              vulnerabilities.”         rected web vulnerabilities identified last year, and reported cyber inci-
                                                        dents to OMB. Web security and privacy protection are essential for
                                                        implementing E-government services, a Government-wide initiative
                                                        on the President's Management Agenda. We examined 175 DOT
                                                        public websites and identified 453 vulnerabilities — 79 rated high, 283
                                                        medium, and 91 low. Of the high vulnerabilities, 21 are among the
                                                        FBI's list of the “20 most critical Internet security vulnerabilities.” We
                                                        also found that DOT websites operating on third-party computers had
                                                        no security assurance. One of these sites was defaced in FY 2002.
                                                        While the events of 9–11 have increased agencies’ awareness of the
                                                        need to limit access to sensitive information, we found sensitive infor-
                                                        mation labeled “For Official Use Only” on DOT public websites. The
                                                        Department has corrected most of the vulnerabilities, removed sensi-
                                                        tive information from websites, and agreed to act to prevent recur-
                                                        rences of these problems. ■



50                 Semiannual Report to Congress
                   o t h e r
accomplishments


O
           ur Semiannual Report to the Congress, like those of other Inspectors
           General, has included information and data that satisfy the legal
           reporting requirements published by the Inspector General Act.
These requirements have traditionally included describing our formal audit
report recommendations and management's follow-up on them, and reporting
convictions and other legal settlements resulting from our investigative work.
However, there are other accomplishments and contributions by our staff that
we have not traditionally reported.
    As a result, we developed this section on Other Accomplishments. It covers
the impact OIG has made in carrying out our statutory responsibilities to: (1)
review existing and proposed legislation and regulations; (2) respond to con-
gressional and DOT requests for information; and (3) review policies for activ-
ities designed to provide economy, effectiveness, and efficiency or detect and
prevent fraud, waste, and abuse in DOT programs and operations.

                                     Aviation
■ FAA modifies its Aviation System Performance Metrics. Based on our
review, FAA modified its Aviation System Performance Metrics so it can auto-
matically generate comparative charts and supporting data on eight different
metrics for the major airlines. The metrics include arrivals, cancellations, arrival
delays, percentage of late-arriving flights, average length of arrival delays,
departure delays, percentage of late-departing flights, and length of departure
delays. (April)
■ Senate Appropriations Committee lowers funding for the WAAS program.
We examined FAA's FY 2003 budget request for the Wide Area Augmentation
System (WAAS) program, a new satellite navigation system. We suggested the
agency defer its request to acquire an additional geostationary satellite since
FAA has encountered problems with the planned acquisition and a delay in
awarding the competitive contract. As a result, the Senate Appropriations
Committee lowered funding for the WAAS program to $98.9 million, a reduc-
tion of $11.6 million from the budget request. (May)



                                                                                       other   accomplishment s   51
                                                 ■ FAA acts to improve operations at air traffic control tower. We reviewed
                                                 concerns about repeated operational errors at Eppley Airfield, Omaha, NE,
                                                 noting the need for FAA to evaluate the facility and expedite replacement of an
                                                 air traffic control supervisor who had left. FAA hired a new supervisor. The
                                                 agency's subsequent evaluation showed the need for stronger oversight in the
                                                 air traffic control tower. (June)
                                                 ■ FAA temporarily suspends issuance of U.S. private pilot certificates to for-
                                                 eign nationals. As a result of our review, FAA temporarily suspended issuance
                                                 of U.S. private pilot certificates to foreign nationals based on foreign pilot
                                                 licenses. On July 26, 2002, FAA resumed issuing private pilot certificates to
                                                 foreign individuals, using an improved process that verifies the authenticity of
                                                 the foreign license used as a basis for issuing U.S. pilot licenses. FAA also
                                                 extended its new procedures to issuance of all airman certificates, such as to
                                                 flight engineers and navigators. Our review was conducted at the request of
                                                 Senator Ben Nighthorse Campbell. (July)

                                                               Highway Infrastructure and Safety Programs
                                            ■ FHWA revises Woodrow Wilson Bridge finance report and project finance
                                            plan to include an additional $15 million. Based on our review, we informed
                                            FHWA that the original finance plan of the Woodrow Wilson Bridge Corridor
                                            Reconstruction Project in the Washington, DC, metropolitan area inadver-
                                            tently omitted information on the portion located in the District of Columbia.
                                            FHWA subsequently ensured that information on an estimated $15 million in
                                            work was included in the quarterly project finance report and project finance
        Woodrow Wilson Bridge construction. plan. (April)

     Photo by Central Communications Group       ■ FHWA advises state agency to begin documenting support for financial
                                                 reports. Based on a complaint we received concerning reports used to deter-
                                                 mine state financial appropriations, we noted concerns with the statistical
                                                 reporting practices of the Massachusetts Highway Department (MHD).
                                                 FHWA found that local highway finance and state capital outlay and expendi-
                                                 ture reports were generally prepared in a manner meeting FHWA guidance.
                                                 However, MHD was not adequately documenting its methods for preparing
                                                 the reports, a deficiency introducing some continuity risk to its statistical oper-
                                                 ations. FHWA subsequently recommended that MHD document the methods,
                                                 procedures, and processes used in developing the reports. (April)
                                                 ■ FHWA agrees to correct formula used to calculate the cost-benefit of
                                                 potential projects. Our review of an FHWA formula used to calculate the cost-
                                                 benefit of potential projects found the parameter was too low that represented
                                                 the average number of bridges per mile of road system. Since bridgework is
                                                 generally more expensive than regular roadwork, underestimating could result



52               Semiannual Report to Congress
in miscomputation of a project's total cost. FHWA agreed the parameter need-
ed to be corrected. (July)
■ New York State decides not to award construction contract to bidder based
on OIG investigation. As a result of an investigation in which we are a partic-
ipant, New York State decided not to award a contract to a particular con-
struction firm after determining it was not a responsible bidder. The firm was
the low bidder for a $260,000 construction contract. The firm is the subject of
a criminal investigation being conducted by the Long Island Construction
Fraud Task Force, whose members include DOT OIG, the FBI, IRS Criminal
Investigations, the Department of Labor OIG, the Postal Inspection Service,
and the New York City Department of Investigation. (August)
■ Kentucky State Department of Transportation agrees to credit future high-
way bills by $3.5 million. Our audit of the FY 2002 Highway Trust Fund
Financial Statements found the Kentucky State Department of Transportation
(KDOT) had been using a faulty formula for charging its overhead costs to
Federal programs. KDOT officials agreed to correct the formula and will cred-
it future highway bills by about $3.5 million. (August)


          Transportation Security and Hazardous Materials
■ TSA revises FY 2002 supplemental funding request to include cost con-
trols. We pointed out cost-control opportunities to TSA, which the agency
used in revising its FY 2002 request for supplemental funding. For example,
to ensure that salaries are commensurate with position responsibilities, TSA no
longer plans to provide special law enforcement availability pay for all law
enforcement positions, thus reducing the annual salaries for TSA police officers
from nearly $90,000 to $60,000. TSA also modified its plans for background
checks, reducing the cost of each check from $2,500 to $200. These reduc-
tions will result in savings of nearly $138 million. (April)

■ TSA and airlines develop pilot program to test positive passenger-bag match-
ing for connecting flights. At a January 23, 2002 hearing before the House
Transportation and Infrastructure Aviation Subcommittee, the IG noted that
TSA and the airlines would benefit from developing a pilot program for a spe-
cific hub airport to investigate use of positive passenger-bag matching for con-
necting flights and any associated problems. American and United Airlines par-
ticipated in the pilot program at Chicago's O'Hare International Airport
between April 24 and May 8. About 4 percent of the 934 flights were delayed
because of the matching. The average delay was about 9 minutes. (April)

■ TSA improves basic security screener training. Based on concerns we iden-
tified while observing screener training, TSA improved its basic security screen-



                                                                                    other   accomplishment s   53
                                     er training, as follows: (1) TSA instructors now oversee training classes and
                                     provide technical support and quality control to contract instructors; (2) TSA
                                     developed an 8-page handout on “The Code of Conduct, Standards of
                                     Performance, and Sensitive Security Information Restrictions”; (3) TSA
                                     included 2 days of training on conflict resolution and stress management in the
                                     prototype supervisory screener course; (4) contractors responsible for hiring
                                     screeners provide student rosters to TSA instructors to ensure that those
                                     approved for training have first passed preliminary requirements; and (5) TSA
                                     ensured that the contractor incorporated the use of screening equipment into
                                     training sessions. (May)
                                     ■ Volpe Center issues letters authorizing staff to transport “nonroutine”
                                     equipment through screening areas. Based on our suggestions, RSPA’s Volpe
                                     National Transportation System Center began issuing special letters of author-
                                     ization for its staff who must transport “nonroutine” technical equipment
                                     through transportation or government facility screening areas. Examples of
                                     such equipment include cameras with remote switches and other surveillance-
                                     type items that security personnel may perceive as a threat. We became
                                     involved when state police detained a RSPA employee at an airport and
                                     impounded his equipment, pending verification of his official status and need
                                     to transport the gear. (June)
                                     ■ Whistleblower Protection Act extended to TSA screener employees. The
                                     Undersecretary of Transportation for Security, the Special Counsel, and the
                                     Inspector General developed a memorandum of understanding (MOU) that
                                     provides whistleblower protection to airport security screeners. OIG enhanced
                                     the agreement in several ways: (1) clarified that the standard protections and
                                     procedures available under the Whistleblower Protection Act will also apply to
                                     all TSA nonscreener employees; (2) the Secretary will review cases involving
                                     alleged retaliation by senior TSA employees if the Under Secretary disagrees
                                     with the Office of Special Counsel's findings and chooses not to accept its rec-
                                     ommendations for corrective action; and (3) OIG will be consulted as TSA
                                     develops its directive implementing this MOU. (June)
                                     ■ Volpe Center tightens security procedures for IDs. An investigation
                                     prompted us to hold discussions with RSPA's Volpe Center about gaps in the
                                     center's oversight of its security guard contractors. The center was not review-
                                     ing the contractors' background checks on their guards, and it lacked a good
                                     system for retrieving DOT IDs when employees left. We investigated a former
                                     contract security guard who resigned in 1999, managed to retain the ID
                                     issued by the center, and in 2002 used it to misrepresent himself as a DOT
                                     law enforcement officer. Our involvement led the center to tighten its securi-
                                     ty procedures for issuing IDs and its control of guards and other contract
                                     workers. (July)


54   Semiannual Report to Congress
■ Commercial driver's licenses recalled. We participated in two criminal inves-
tigations that resulted in the recall of 101 commercial driver's licenses (CDLs)
by North Carolina and 248 CDLs by Ohio. Ohio mailed notices in July order-
ing retesting of 248 CDL holders tested by a third-party examiner who plead-
ed guilty to fraud for claiming he had conducted proper testing when he had
not. We investigated this case with the Ohio State Police.
   In North Carolina, the State instructed truck drivers who were tested by a
third-party tester under investigation to get retested or have their CDL sus-
pended. Of the 101 candidates, 55 showed up for retesting; 13 failed the exam
and another 13 had their licenses downgraded so they could not drive a truck.
Of the 46 drivers who did not report for retesting, 25 had their CDLs sus-
pended and 21 have been rescheduled for retesting. Eight drivers have been
involved in commercial motor vehicle accidents following their test by the sus-
pected third party. This is an ongoing case being investigated jointly by OIG,
the North Carolina Division of Motor Vehicles, and the FBI, with assistance
from FMCSA. (September)

                 Financial and Information Technology
■ Revised “Drug Control Accounting” circular includes OIG language. We
provided comments on the President's Office of National Drug Control Policy
revised circular “Drug Control Accounting,” a publication of the policies and
procedures that Inspectors General use in conducting the annual accounting of
drug-control funds. DOT and other Federal agencies use funds to meet drug-
control objectives consistent with their missions, such as the Coast Guard's
drug-interdiction activities. Our comments resulted in clarifying language
explaining how agencies are to handle reimbursements to avoid double-count-
ing. (June)
■ DOT removes sensitive documents from public web sites. As part of our
audit of web security, we identified four sensitive documents labeled “For
Official Use Only” that were inappropriately posted on DOT public web sites.
The documents were removed immediately. (July)


                  Competition and Economic Analysis
■ DOT improves rules and procedures for determining compensable losses
under the Air Transportation Safety and System Stabilization Act. We com-
mented on the Department's rules and procedures for air carriers seeking com-
pensation under the Air Transportation Safety and System Stabilization Act.
The rules and procedures require air carriers to prepare schedules supporting
their forecasted and actual revenues and expenses for the period September
11–December 31, 2001, and the direct and incremental losses resulting from


                                                                                   other   accomplishment s   55
                                     the September 11 terrorist attacks. We noted incorrect calculations for deter-
                                     mining the maximum amount of compensable losses that airlines could claim
                                     under the act. The quality of data and reports were subsequently improved to
                                     help ensure carriers would be paid accurately. (May)
                                     ■ Air carriers that overstated losses receive reduced compensation. Our
                                     review of the submissions of four air carriers seeking compensation under the
                                     Air Transportation Safety and System Stabilization Act found that two carriers
                                     overstated their operating data and two overstated their incremental losses.
                                     They received a total of about $150,000 less in compensation payments as a
                                     result of our work. (May)
                                     ■ Air carrier agrees to reimburse the Department for overstated losses. An air
                                     carrier agreed to reimburse the Department $250,000 in compensation pro-
                                     gram funds, as a result of our review of the operating and financial data sub-
                                     mitted by air carriers that received compensation under the Air Transportation
                                     Safety and System Stabilization Act. (September)
                                     ■ Snapshot of key financial and operating statistics provides needed informa-
                                     tion. Working with the Federal Railroad Administration, we developed a finan-
                                     cial template that captures Amtrak's monthly statistical highlights. The infor-
                                     mation is used to give the Deputy Secretary and Amtrak's Board of Directors
                                     a snapshot of key financial and operating statistics, as well as timely explanations
                                     for variances from its established plans. (September)

                                                                         Maritime
                                     ■ Senate Appropriations Committee cites OIG analyses of the Coast Guard's
                                     mission hours in FY 2003 budget. Following up on our February 2002 testi-
                                     mony, we provided analyses of the Coast Guard's mission hours to the Senate
                                     Appropriations Committee, illustrating the change in Coast Guard operations
                                     and resource requirements after September 11, 2001. The committee used the
                                     information in the Committee Report on the Coast Guard's FY 2003 budget.
                                     In the discussion of this data, the committee expressed concerns about “the
                                     Coast Guard's ability to achieve mission balance and adequately address its
                                     other critical missions, including search and rescue, drug and migrant interdic-
                                     tion, maintenance of aids to navigation, and ensuring the safety and integrity
                                     of our domestic fishing grounds.” (August)




56   Semiannual Report to Congress
               c h a r t s &
                 ta b l e s

Summary of Performance
April 1–September 30, 2002

Reports issued                                                  30

Recommendations issued                                         100

Congressional testimonies                                       10

Total financial recommendations                        $330,245,085
— that funds be better used                            $328,456,436
— that questioned costs                                  $1,788,649

Cases referred for prosecution                                 618

Cases accepted for prosecution                                 612

Indictments                                                    616 *

Fines, restitutions, civil judgments, and recoveries    $33,234,143

Convictions                                                    299

Debarments and suspensions                                      20

Actions affecting DOT employees                                 15

*Includes indictments from airport security sweeps.




                                                                       C h a r t s   &   Ta b l e s   57
                                     INVESTIGATIONS
                                     Judicial and Administrative Actions
                                     April 1–September 30, 2002
                                     Indictments                                                                                                 616 *
                                     Administrative actions
                                       Employee
                                              terminations                                                                                         3
                                              suspensions                                                                                          5
                                              reassignments                                                                                        2
                                              reprimands                                                                                           3
                                              resignations and retirements                                                                         2
                                       Debarments and suspensions                                                                                 20
                                       Federal participation terminated                                                                            1
                                       Licenses revoked or terminated                                                                            150
                                     Convictions                                                                                                 299
                                     Years sentenced                                                                                              67
                                     Years' probation                                                                                            227
                                     Years' supervised release                                                                                   149
                                     Hours of community service                                                                                2,200
                                     Fines                                                                                             $22,217,940
                                     Restitutions/civil judgments                                                                       $7,703,033
                                     Federal recoveries†                                                                                $2,287,540
                                     State recoveries†                                                                                  $1,025,630
                                     Total                                                                                          $33,234,143
                                     *Includes indictments from airport security sweeps.
                                     †"Recoveries" include fines, restitution, civil judgments or settlements, and Federal and state recoveries. Federal
                                     recoveries go to the U.S. Treasury; state recoveries are retained by the states.




                                     D
                                               uring the 6-month reporting period, 135 cases were opened and 93
                                               were closed, leaving a pending caseload of 622. In addition, cases
                                               involving 618 institutions and people were referred for prosecution.
                                     Cases involving 612 people and institutions referred during this or prior report-
                                     ing periods were accepted for prosecution. The cases of 17 people and firms
                                     were declined.




58   Semiannual Report to Congress
Profile of Pending Investigations
April 1–September 30, 2002
                                                                                             Types of Cases
                                                                     Contract                   Aviation
                                                  Number             & Grant    Employee         Safety       Motor Carrier
                                                  of Cases            Fraud      Integrity     & Security        Safety         HazMat       Other
Operating Administration
Bureau of Transportation Statistics                    2                  0         2              0                 0            0            0
U.S. Coast Guard                                      55                 12        18              5                 0            15           5
Federal Aviation Administration                       200                31        34             108                0            16          11
Federal Highway Administration                        97                 90         0              0                 0            0            7
Federal Railroad Administration                       10                  3         0              0                 0            6            1
Federal Transit Administration                        16                 15         0              0                 0            0            1
Maritime Administration                                7                 —          4              3                 0            0            0
Federal Motor Carrier Safety Administration           106                 0         0              0                 82           16           8
Office of the Secretary                                7                  2         2              0                 0            0            3
Research and Special Programs Administration          33                  2         4              0                 0            27           0
Transportation Security Administration                77                  2         1             74                 0            0            0
National Highway Traffic Safety Administration        12                  1         6              0                 0            0            5

Total                                                622                 158       71             190                82           80          41
Percent of Total                                    100%                 26%      11%            30%              13%            13%          7%


Application of Investigative Resources by Operating Administration*
April 1–September 30, 2002
                                                      NHTSA 0.9%                                                                          BTS 0.2%
                                                                                                                                          USCG 3.3%




                                                        TSA 21.9%                                                                         FAA 20.4%




                                                        RSPA 4.5%


                                                                                                                                          FHWA 16.4%


                                                        OST 14.1%




                                                                                                                                          FRA 1.6%
                                                     FMCSA 15.7%                                                                          FTA 0.9%
                                                                                                                                          MARAD 0.2%
*These figures include direct labor charges applied to investigations.
Note: May not equal 100 percent due to rounding.


                                                                                                       C h a r t s       &   Ta b l e s       59
Application of Investigative Resources by Priority Area
April 1–September 30, 2002
                                                                                                                                           Other 11%




                                                                                                                                           Aviation safety & security 34%
                                  Employee Integrity 7%




                                Motor carrier safety 13%




                                     HazMat safety 10%
                                                                                                                                           Contract & grant fraud 26%


Note: May not equal 100 percent due to rounding.




AUDITS
Completed OIG Reports
April 1–September 30, 2002
(Estimated Amounts*, Dollars in Thousands)
                                                 Number of               Number of                  Questioned and                Funds to Be Put
                                                  Reports             Recommendations             Unsupported Costs†               to Better Use
Type of Review
Internal Audits
— Program/Functional                                  14                        94                         $1,700                      $328,456
— Chief Financial Officer financial statements        0                          0                            0                            0
Other OIG Internal Reports                            0                          0                            0                            0
Total Internal Audits and Reports                    14                         94                        $1,700                      $328,456
Grant Audits
— Audits of grantee under Single Audit Act           16                          6                          $89                            0
Total                                                30                        100                        $1,789                      $328,456

* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
† There were no recommendations with unsupported costs.
Note: Department of Transportation programs and operations are primarily carried out by the Department's personnel and recipients of Federal grants. As a result, audits
by DOT's Office of Inspector General fall into three categories: (1) internal audits of departmental programs and operations; (2) internal reviews of departmental pro-
grams and operations; and (3) audits of grant recipients. The table shows OIG's results in the three categories for the 6 months covered by this report.


60                     Semiannual Report to Congress
OIG Reports with Recommendations That Questioned Costs
April 1–September 30, 2002
(Dollars in Thousands)
                                                  Number of           Number of    Questioned
                                                   Reports         Recommendations   Costs*
Reports
A For which no management decision was made
  by the start of the reporting period                10                   12         $8,287

B Which were issued during the reporting period        2                   2          $1,789

Total A+B                                             12                   14        $10,076

C For which a management decision was made
  during the reporting period                          6                    6         $3,037
— dollar value of disallowed costs                    4†                   4‡         $2,837
— dollar value of costs not disallowed                3†                   3‡         $1,095

D For which no management decision was made
  by the end of the reporting period                   6                   8          $7,039

* There were no recommendations with unsupported costs.
† Includes reports where costs were both allowed and disallowed.
‡ Includes recommendations where costs were both allowed and disallowed.




OIG Reports Recommending That Funds Be Put to Better Use
April 1–September 30, 2002
(Dollars in Thousands)
                                                  Number of           Number of       Dollar
                                                   Reports         Recommendations    Value
Reports
A For which no management decision was made
  by the start of the reporting period                 3                   3         $544,202
B Which were issued during the reporting period        5                   5         $328,456

Total A+B                                              8                   8         $872,658

C For which a management decision was made
  during the reporting period                          5                   5         $328,558
— dollar value of recommendations to which
  management agreed                                    3*                  3†        $314,256
— dollar value of recommendations to which
  management did not agreed                            2*                  2†         $14,302
D For which no management decision
  was made by the end of the reporting period          3                   3         $544,100

* Includes reports where costs were both allowed and disallowed.
† Includes recommendations where costs were both allowed and disallowed.


                                                                                                C h a r t s   &   Ta b l e s   61
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
April 1–September 30, 2002
                                                          Number of            Number of
                                                           Reports          Recommendations
Reports
A    For which no management decision was made
     by the start of the reporting period                       49                     113
B    Which were issued during the reporting period              16                      93

Total A+B                                                       65                     206

C    For which a management decision was made
     during the reporting period                                43*                    125
D    For which no management decision was made
     by the end of the reporting period                         30*                     81

* Includes reports where management made decisions on some but not all recommendations.




Management Decisions Regarding OIG Recommendations
April 1–September 30, 2002
(Dollars in Thousands)
                                                        Number of             Number of               Questioned and     Funds to Be Put
                                                         Reports           Recommendations          Unsupported Costs*     to Better Use
Description
Unresolved as of April 1, 2002                             53                          128                $8,287            $544,202
Audits with findings during current period                 17                          100                $1,789            $328,456
Total to Be Resolved                                       70                          228               $10,076            $872,658
Management Decisions:
— Prior Period*                                            33                          66                 $1,337             $1,702
— Current Period*                                          13                          70                 $1,700            $326,856
Total Resolved                                             46                          136               $3,037             $328,558
Unresolved:
— Less than 6 mos. old                                      9                          30                  $89               $1,600
— 6 mos.–1 year                                            14                          34                 $2,654            $494,500
— 1 year–18 mos.                                            5                          16                 $3,911               $0
— 18 mos.–2 years                                           3                           9                  $386              $48,000
— Over 2 years old                                          2                           3                   $0                 $0
Total Unresolved as of September 30, 2002†                 33                          92                $7,039‡            $544,100

* Includes reports and recommendations where costs were both allowed and disallowed.
† Considered unresolved if management decisions have not been made on all report recommendations.
‡ Rounding of dollars may affect total.



62                      Semiannual Report to Congress
Office of Inspector General Published Reports
April 1–September 30, 2002
Operating
Administration/       Report          Date                                                                 Focus of Report/
Type of Report        Number         Issued                        Title                                   Recommendations

United States Coast Guard
Internal Audits: Program/Functional — 2 reports
                     MH–2002–091    05–07–2002       Inventory Management of Spare and                    Put $12,600,000 to better use
                                                     Repair Parts for Cutters and Small Boats
                     FI–2002–110    09–18–2002       Vessel Documentation User Fees                       $1,700,000 questioned
Federal Aviation Administration
Internal Audits: Program/Functional — 3 reports
                     AV–2002–088    04–08–2002       Air Transportation Oversight System                  Significant challenges to full
                                                                                                          implementation still exist
                     FI–2002–092    05–08–2002       Oversight of Cost-Reimbursable Contracts             Put $132,000,000 to better use
                     IN–2002–099    08–15–2002       Airport Lease Data                                   Establish internal controls to improve
                                                                                                          oversight of airport lease data
Grant Audits: Audits of Grantee Under Single Audit Act — 2 reports
                     QC–2002–101    08–16–2002       City of Des Moines, IA                               Improve grantee oversight
                     QC–2002–112    09–17–2002       Minneapolis-St. Paul, MN,                            Improve grantee oversight
                                                     Metropolitan Airports Commission
Federal Highway Administration
Internal Audits: Program/Functional — 1 report
                     IN–2002–095    07–22–2002       Actions Taken to Recover Excess Reserves             Put $133,000,000 to better use
                                                     from the Central Artery/Tunnel Project's
                                                     Owner-Controlled Insurance Program
Grant Audits: Audits of Grantee Under Single Audit Act — 1 report
                     QC–2002–106    08–22–2002       South Carolina Department of Transportation          Improve grantee oversight
Federal Transit Administration
Grant Audits: Audits of Grantee Under Single Audit Act — 13 reports
                     QC–2002–090    04–29–2002       Massachusetts Bay Transportation                     Improve grantee oversight
                                                     Authority, Boston, MA
                     QC–2002–096    07–24–2002       Northern New England Passenger                       Improve grantee oversight
                                                     Rail Authority, Portland, ME
                     QC–2002–097    07–24–2002       Santa Clara Valley Transportation                    Improve grantee oversight
                                                     Authority, Santa Clara, CA
                     QC–2002–098    07–24–2002       Peninsula Corridor Joint Powers                      Improve grantee oversight
                                                     Board, San Carlos, CA
                     QC–2002–100    08–16–2002       Brazos Transit District, TX                          Improve grantee oversight
                     QC–2002–102    08–16–2002       Hillsborough Area Regional                           Improve grantee oversight
                                                     Transit Authority, FL
                     QC–2002–103    08–16–2002       Broward County, FL                                   Improve grantee oversight
                     QC–2002–104    08–16–2002       Access Services Incorporated, Los Angeles, CA        Improve grantee oversight
                     QC–2002–105    08–22–2002       County of Volusia, FL                                Improve grantee oversight
                     QC–2002–107    08–22–2002       Metropolitan Council, St. Paul, MN                   Improve grantee oversight
                     QC–2002–111    09–16–2002       Southeastern Pennsylvania Transportation Authority   $88,649 questioned
                     QC–2002–114    09–16–2002       Niagara Frontier Transportation Authority, NY        Improve grantee oversight
                     QC–2002–116    09–27–2002       Transportation District Commission of                Improve grantee oversight
                                                     Hampton Roads, VA

                                                                                           C h a r t s       &     Ta b l e s             63
Office of Inspector General Published Reports (continued)

Operating
Administration/                Report            Date                                                                     Focus of Report/
Type of Report                 Number           Issued                           Title                                   Recommendations
Federal Motor Carrier Safety Administration
Internal Audits: Program/Functional — 2 reports
                             MH–2002–093        05–08–2002      Improving Testing and Licensing               Broader oversight reviews of state
                                                                of Commercial Drivers                         CDL programs needed to ensure licensing
                                                                                                              problems are corrected
                             MH–2002–094        06–25–2002      Implementation of Commercial Vehicle Safety   Substantial progress made toward hiring
                                                                Requirements at the U.S.-Mexico Border        and training inspectors, establishing inspection
                                                                                                              facilities,and developing safety processes and procedures
National Highway Traffic Safety Administration
Internal Audits: Program/Functional — 1 report
                             MH–2002–109        09–18–2002      Progress in Implementing Strategies to        Maintaining modest gains of the past
                                                                Increase the Use of Seat Belts                8 years depends on aggressive and
                                                                                                              consistent enforcement of state laws
Office of the Secretary Of Transportation
Internal Audits: Program/Functional — 4 reports
                             FI–2002–089        04–15–2002      Information Technology Omnibus                Put $1,600,000 to better use
                                                                Procurement Program
                             FI–2002–108        09–12–2002      Spending Money from Treasury                  Put $49,256,436 to better use
                                                                Miscellaneous Receipts Accounts
                             FI–2002–115        09–27–2002      Information Security Program                  Implementing security guidance requires
                                                                                                              increased management attention
                             FI–2002–118        09–30–2002      Web Systems Security                          Previously identified vulnerabilities corrected but
                                                                                                              more remains to be done to secure DOT websites
Transportation Security Administration
Internal Audits: Program/Functional — 1 report
                             SC–2002–113        09–19–2002      Cargo Security Program                        New principles and controls needed to
                                                                                                              strengthen cargo security program


Application of Audit Resources by Operating Administration
April 1–September 30, 2002
                                                          TSA 17%                                                                                       FAA 24%

Note: Resources shown for OST include
time spent performing audits of the DOT
Consolidated Financial Statement (which                  MARAD 2%
includes all Operating Administrations) and
Air Transportation Safety and System
Stabilization Act activities, including air
carrier compensation payments and loan
guarantees for the airline industry.                     FHWA 13%                                                                                       FRA 5%
    Time spent on the Research and Special
Programs Administration, the St. Lawrence
Seaway Development Corporation, the
National Transportation Safety Board, and the            NHTSA 1%                                                                                       USCG 8%
Surface Transportation Board was less than 1
percent each.                                                FTA 4%

Note: May not equal 100 percent due to                    OST 19%                                                                                       FMCSA 6%
rounding.



64                      Semiannual Report to Congress
Office of Inspector General Congressional Testimonies
April 1–September 30, 2002
                 Testimony
Control No.         Date                         Subject                                   Congressional Body

CC–2002–146      04–11–2002   FAA Oversight of Passenger Aircraft Maintenance        Committee on Transportation and
                                                                                     Infrastructure, Subcommittee on
                                                                                     Aviation, U.S. House of Representatives

CC–2002–124      04–17–2002   Key Budget Issues Facing the Transportation            Committee on Appropriations,
                              Security Administration                                Subcommittee on Transportation,
                                                                                     U.S. House of Representatives

CC–2002–155      05–01–2002   Management of Large Highway and Transit Projects       Committee on Transportation and
                                                                                     Infrastructure, Subcommittee on
                                                                                     Highways and Transit, U.S.
                                                                                     House of Representatives

CC–2002–180      06–20–2002   Key Challenges Facing the                              Committee on Appropriations,
                              Transportation Security Administration                 Subcommittee on Transportation,
                                                                                     U.S. House of Representatives

CC–2002–181      06–20–2002   Amtrak's Financial Condition                           Committee on Appropriations,
                                                                                     Subcommittee on Transportation
                                                                                     and Related Agencies, U.S. Senate

CC–2002–179      06–27–2002   Implementation of Commercial Motor Carrier Safety      Joint Hearing Before the Committee
                              Requirements at the U.S.-Mexico Border                 on Appropriations, Subcommittee
                                                                                     on Transportation, and the Committee
                                                                                     on Commerce, Science, and
                                                                                     Transportation, Subcommittee on
                                                                                     Surface Transportation and Merchant
                                                                                     Marine, U.S. Senate

CC–2002–197      07–23–2002   Progress in Implementing Provisions of the             Committee on Transportation and
                              Aviation and Transportation Security Act               Infrastructure, Subcommittee on
                                                                                     Aviation, U.S. House of Representatives

CC–2002–203      08–07–2002   Progress in Implementing Provisions of the             Committee on Government
                              Aviation and Transportation Security Act               Reform, U.S. House of Representatives

CC–2002–236      09–17–2002   Aviation Cargo Security                                Committee on Commerce, Science,
                                                                                     and Transportation, U.S. Senate

CC–2002–233      09–19–2002   Reauthorization of Highway and Transit Programs:       Committee on Environment
                              Improving the Delivery of Transportation Projects      and Public Works, U.S. Senate




                                                                             C h a r t s    &   Ta b l e s             65
Status of Unresolved Recommendations Over 6 Months Old
Cited in Semiannual Report for Reporting Period —                              Report No.        Date Issued                             Status
October 1, 1999–March 31, 2000
Airport Access Control                                                           AV–2000–017          11–18–99             Working with TSA to resolve open issues

April 1, 2000–September 30, 2000
Contract Towers: Observations on FAA's Study of Expanding the Program            AV–2000–079          04–12–00             Awaiting additional information from FAA

October 1, 2000–March 31, 2001
Airport Noise Compatibility Program                                              AV–2001–012          12–14–00             Awaiting additional information from FAA
Castle Joint Powers Authority                                                    QC–2001–022          02–14–01             Working with grantee to resolve issues
Gary Public Transportation Corporation                                           QC–2001–027          02–16–01             Working with grantee to resolve issues
April 1, 2001–September 30, 2001
State of Louisiana                                                               QC–2001–049          04–02–01             Working with grantee to resolve issues
State of Indiana                                                                 QC–2001–052          04–11–01             Working with grantee to resolve issues
Government of the United States Virgin Islands                                   QC–2001–053          04–17–01             Working with grantee to resolve issues
Compensation Issues Concerning Air Traffic                                       AV–2001–064          06–15–01             Working with FAA to resolve open issues
Managers, Supervisors, and Specialists
Despite Significant Management Focus,                                            AV–2001–066          06–26–01             Working with FAA to resolve open issues
Further Actions Are Needed to Reduce Runway Incursions

October 1, 2001–March 31, 2002
Association of State Highway and Transportation Officials, Washington, DC        QC–2002–003          10–18–01             Working with grantee to resolve open issues
City of Delaware, Ohio                                                           QC–2002–010          10–24–01             Working with grantee to resolve open issues
Milford Transit District, Connecticut                                            QC–2002–021          10–30–01             Working with grantee to resolve open issues
State of Florida                                                                 QC–2002–026          10–31–01             Working with grantee to resolve open issues
Downtown Waycross Development Authority, Georgia                                 QC–2002–027          10–31–01             Working with grantee to resolve open issues
State of Illinois                                                                QC–2002–029          10–31–01             Working with grantee to resolve open issues
State of Minnesota                                                               QC–2002–030          10–31–01             Working with grantee to resolve open issues
State of Indiana                                                                 QC–2002–032          10–31–01             Working with grantee to resolve open issues
State of Iowa                                                                    QC–2002–036          11–01–01             Working with grantee to resolve open issues
Metropolitan Transit Authority of Black Hawk County, Iowa                        QC–2002–041          11–02–01             Working with grantee to resolve open issues
Government of the United States Virgin Islands                                   QC–2002–051          11–06–01             Working with grantee to resolve open issues
Operational and Supportability Implementation System (OASIS)                     AV–2002–064          12–07–01             Working with FAA to resolve open issues
Review of FAA's Oversight of Aircraft Maintenance                                AV–2002–066          12–12–01             Working with FAA to resolve open issues
FAA's Acquisition of Aviation Weather Systems                                    AV–2002–084          02–28–02             Working with FAA to resolve open issues




Required Statements:
   The Inspector General Act requires explanations of reasons for significant revisions to management decisions made during the reporting period. OIG follows up on
audits reported in earlier semiannual reports. During this reporting period, there were no significant revisions of departmental management decisions reported to OIG.
    The Inspector General Act requires this report to describe any significant management decisions with which the OIG disagrees. At the close of this reporting peri-
od, there were no significant management decisions with which OIG disagreed.



 66                      Semiannual Report to Congress
      a w a r d s
                 Secretarial Awards
                 Award for Meritorious Achievement
Lou E. Dixon
  For outstanding leadership and significant contributions in evaluating the
Department’s effort to improve aviation safety.
Douglas Shoemaker
  For outstanding investigative accomplishments that enhance and preserve
the integrity of the Department’s programs and operations.

                          Award for Excellence
Larretha A. Blackmon
  For dedication and exemplary performance in providing administrative sup-
port for the Office of Inspector General in Atlanta.
Charmaine E. Newman
  For exemplary service in providing outstanding administrative and technical
support to the Washington, D.C., Investigative Regional Field Office, the
Headquarter-based Complaint Center, and the Integrity Investigative Unit.

                     Award for Volunteer Service
Kirk A. Gillett
   For long-standing exemplary volunteer service to improve the lives of indi-
viduals affected by Down Syndrome in the Seattle area.

                  Partnering for Excellence Award
Air Transportation Safety and System Stabilization Act Team
   For outstanding accomplishments and contributions to the Department’s
implementation of the Air Transportation Safety and System Stabilization Act.
Mark R. Dayton, Raymond J. DeCarli, Michael E. Goldstein, Stuart A.
Metzger, George Lavanco, Timothy G. Keane, Bernard Fishman, Patricia
Hagerty, Tesha M. Lynch, Johanna L. Nathanson, Suzanne B. Shaps

                               Team Award
U.S. –Mexico Border Safety Audit Team
   For exceptional efforts in ensuring that the robust safety and enforcement
regime for Mexican trucks required by the Fiscal Year 2002 Transportation
Appropriations Act is in place before the U.S.-Mexico border is opened to
long-haul traffic.
Barbara M. Cobble, Madeline M. Chulumovich, Leila D. Kahn, Shirley H.
Murphy, Larry K. Herdzina, William M. Obinger, William E. Savage, John
H. Weiss, Gary L. Alvino, Sara J. Ancona, Sharleda A. Davis, Katya M.
Mischenko, Calvin L. Moore II, Christopher R. Smith, Jeffrey S. Wilson

                                                                                 a w a r d s   67
                                              Inspector General Awards

                                     T
                                           hrough the talent and dedication of the employees cited below, OIG
                                           was able to provide valuable congressional testimony, uncover crimi-
                                           nal activity, and make important recommendations to improve pro-
                                     gram effectiveness affecting the safety of the public and integrity of the
                                     Department.
                                                       Award for Superior Achievement
                                     Barbara M. Cobble
                                       For superior performance in improving highway safety by ensuring safety at
                                     the U.S.-Mexico border and improving the process for testing and licensing
                                     commercial drivers.
                                     Marlies T. Gonzalez
                                        For outstanding performance in conducting criminal investigations having a
                                     significant impact on public safety.

                                                      Exceptional Civilian Service Award
                                     Tristan Linkert
                                        For outstanding investigative work and dedication to duty demonstrated in
                                     a 15-year career with the OIG.
                                     Robin K. Hunt
                                       For consistent outstanding management of high-profile nationwide audits.
                                     Petra Swartzlander
                                       For developing an innovative and technically expert statistical program that
                                     has supported many of the OIG’s most important audits over the last 10 years.

                                                      Marguerite Christensen Award for
                                                       Excellence in Administration
                                     Leslie A. McBroom
                                        For exemplary performance, initiative, and commitment to excellence in
                                     providing the Office of Inspector General with outstanding human resources
                                     services.
                                                               Manager of the Year
                                     Matthew E. Hampton
                                       For outstanding performance, leadership, and significant contributions in
                                     evaluating and strengthening FAA’s modernization efforts.
                                     Scott K. Macey
                                       For exceptional leadership in managing Transportation Security
                                     Administration audits and preparing testimony for the Inspector General.
                                     Mary Ann Taylor
                                       For exemplary service in managing and continually enhancing the efficiency
                                     and effectiveness of OIG’s Hotline Complaint Center.




68   Semiannual Report to Congress
      a w a r d s
                         Supervisor of the Year
Peter F. Babachicos
   For continuing outstanding efforts in leadership and management of the
staff and work of the Cambridge suboffice.
Ricky L. Bostian
  For outstanding supervision and leadership of the investigative staff in
Region Nine.
Joseph W. Comè
  For outstanding leadership and dedication, and the ability to plan and pro-
duce exceptional audit work that improved highway safety.
George Lavanco
  For outstanding accomplishments and contributions to the Department’s
implementation of the Air Transportation Safety and System Stabilization Act.
Michael L. Marshlick
  For outstanding performance in reviewing information technology procure-
ments and systems operations.
Leonard F. Meade
   For outstanding leadership to improve financial management practices
throughout DOT.
William L. Owens
   For distinguished and dedicated service as Assistant Special Agent-in-Charge
of the New York Regional Office, facilitating many outstanding accomplish-
ments for the OIG.
Robert F. Prinzbach
   For exemplary contributions to the Office of Inspector General in supervis-
ing audits of Federal Aviation Administration programs and operations.

                          Employee of the Year
David J. Barnes
   For developing an effective communications program and fostering rela-
tionships with the media to ensure that OIG work products are timely and
accurately reported.
Kari E. Beitel
   For outstanding performance as Analyst-in-Charge of the congressionally
requested review of Proposed Aviation Security Technologies.
Sam N. Bellino
  For outstanding leadership in completing the audit of Coast Guard’s
Inventory Management of Spare and Repair Parts for Cutters and Small Boats.



                                                                                  a w a r d s   69
                                     Ruth A. Blevins
                                       For outstanding leadership in completing the audit of Coast Guard’s
                                     National Distress System.
                                     Bernard Fishman
                                       For exceptional contributions to the Department’s review of Air Carrier
                                     Compensation Payments and Loan Guarantee Applications.
                                     Mike J. Leibrecht
                                        For dedication, commitment, and high-quality performance in conducting
                                     reviews of safety-related programs of the Federal Aviation Administration.
                                     Ramon Sanchez, Jr.
                                       For outstanding courage and commitment to public safety.
                                     Loretta F. Swanson
                                       For outstanding efforts to complete a review of cost growth on the
                                     Springfield Interchange Project.
                                     Sharon R. Trodden
                                       For outstanding dedication and contributions to the President, Secretary,
                                     and Inspector General’s initiatives for improving aviation security post-
                                     September 11, 2001.
                                     R. Curt Vaughan
                                        For exemplary service in conducting priority investigations of great signifi-
                                     cance to the OIG, the Department, and Congress, and for superior contribu-
                                     tions to OIG’s Complaint Center operations.
                                     Sydney H. Verinder
                                       For contributions to effective audit management by leading efforts to devel-
                                     op more accurate and timely reports on audit activities and audit staffing.
                                     Michael J. Veverka
                                        For outstanding work on cost accounting issues within the U.S. Department
                                     of Transportation.
                                     John M. Zuniga
                                       For outstanding performance in conducting investigations for the U.S.
                                     DOT Inspector General.

                                                    Administrative Professional of the Year
                                     Fannie C. Robinson
                                        For dedication and outstanding performance in supporting the administra-
                                     tive and investigative function of the office, especially in the area of aviation
                                     safety.
                                     Chris Satterfield
                                       For steady dedication to duty maintained over many years and constant
                                     excellence in administrative support.
                                     Patricia K. Stevens
                                       For outstanding administrative support to the Assistant Inspector General
                                     and employees of the Office of Financial and Information Technology Audits.



70   Semiannual Report to Congress
      a w a r d s
                          New Employee Award
Krystal L. Patrick
  For dedication and exemplary performance on the Free Flight Phase 1 audit
and the National Airspace Redesign Choke Point initiatives.
Dale M. Potts
   For creating a model for a comprehensive management-information system
to enable FTA to track the progress and better manage projects in the New
Starts Program from the initial planning stages through construction.
Keri L. Spencer
   For superior efforts in evaluating and reporting on financial issues concern-
ing the Transportation Security Administration.
Mark A. Stiglitz
  For a positive attitude and outstanding interpersonal and data analysis skills,
which serve as a model for all OIG employees.

                               Team Awards
The “338” Audit Team
   For outstanding audit work on proper use of money from U.S. Treasury
accounts.
Terrence J. Letko, Leonard F. Meade, Sharon J. Ayers, Thomas E. Wise, Jr.

Aviation Security Program Investigation Team
   For exemplary service in conducting a priority, high-sensitivity investigation
of alleged improprieties in the management of key FAA aviation security pro-
grams.
Richard C. Beitel, Jr., Brian A. Dettelbach, James L. Muhlenkamp, Steven
N. Albino, Richard C. Appleton, Efferem I. Poynter, Michael J. Purcell,
Barbara E. Schor, Kevin C. Shirley, Edwin J. Wynn, Todd Damiani

Central Artery Project Team
  For outstanding efforts in the oversight of the Central Artery Project.
Peter F. Babachicos, William R. Lovett, Laurence G. Burke, John M.
Hannon

Commercial Driver’s License Audit Team
   For contributions in identifying the need to tighten Federal standards and
state controls for the National Commercial Driver’s License Program in order
to defend against the alarming threat posed by individuals who seek to fraud-
ulently obtain licenses.
Barbara M. Cobble, Joseph W. Comè, Shirley H. Murphy, Larry K.
Herdzina, William M. Obinger, Kimberley A. Bolding, Paul W.
Kimbrough, Christopher R. Smith



                                                                                    a w a r d s   71
                                     Coordination Team: 2002 National Fraud Conference on Highway and Public
                                     Transportation Programs
                                        For invaluable contributions to the 2002 National Fraud Conference on
                                     Highway and Public Transportation Programs.
                                     LaVan Griffith, Michael D. Gulledge, Gary E. Lewis, Rodolfo E. Perez,
                                     David J. Barnes, John W. Long, Michelle T. McVicker, Joseph M.
                                     Zschiesche, Normalyn Anderson, Kevin L. McBride, Mark E. Peters,
                                     Douglas Shoemaker, Bradley D. Wheeler

                                     Federal Motor Carrier Safety Administration Bribery Investigation Team
                                        For superior teamwork resulting in the arrest of an individual who had
                                     bribed an FMCSA safety inspector.
                                     Craig S. Singleton, David J. Hoefler, Kevin C. Shirley, Jacquie M.
                                     Wente, Henry Rivas

                                     Information Technology Omnibus Procurement Audit Team
                                        For outstanding performance in reviewing a Government-wide procurement
                                     program managed by the Department of Transportation.
                                     Rebecca C. Leng, Michael L. Marshlick, Thomas K. Lehrich, Gary M.
                                     Klauber, Linda L. Toms, Cynthia F. Tims

                                     Occupational Safety and Health Standards for Flight Attendants Team
                                       For producing audit results that provided the impetus needed to ensure the
                                     Government protects flight attendants from workplace hazards.
                                     David A. Dobbs, Richard A. Kaplan, Robert F. Prinzbach, Coletta A.
                                     Treakle

                                     Recruiting Video and Trade Show Development Team
                                       For outstanding work creating the DOT OIG recruiting video and trade
                                     show display.
                                     Michelle Ward McGee, Lisa A. Glazzy, Efferem I. Poynter, Steven M.
                                     Schleyer, Barbara E. Schor, Paul Nagulko, Joyce K. Mayeda

                                     Standard Terminal Automation Replacement System Review Team
                                       For dedication and exemplary performance on reviews of the Federal
                                     Aviation Administration’s Standard Terminal Automation Replacement System.
                                     Robert F. DeAntonio, Charles A. Ward, Victoria J. Smith




72   Semiannual Report to Congress
      a w a r d s
                        PCIE Awards

T
      he President’s Council on Integrity and Efficiency (PCIE) addresses
      issues of integrity, economy, and effectiveness that transcend individ-
      ual Government agencies; increase the professionalism and effective-
ness of IG personnel throughout the Government; and coordinate IG
responses to congressional requests. The body comprises all Presidentially
appointed Inspectors General and officials from the Office of Management
and Budget, Federal Bureau of Investigation, Office of Personnel
Management, Office of Government Ethics, and Office of Special Counsel.

                    Award for Excellence — Audit
Aviation Safety Team
   For providing the impetus for important changes in FAA and air carrier over-
sight processes and improving aviation safety.
David A. Dobbs, Lou E. Dixon, Robin P. Koch, Tina B. Nysted,
Jurandia L. Brown, Thomas D. Jefferson, Ronnie G. Jones, Mike J.
Leibrecht, Curt L. Boettcher, Curtis S. Gelber, Kevin F. George

Transportation Security Team
   For outstanding dedication and contributions to improving transportation
security following September 11, 2001.
David A. Dobbs, Robin K. Hunt, Scott K. Macey, Daniel R. Raville,
Petra Swartzlander, A. Robert Lund, Robert F. Meisenhelder, Shirley
H. Murphy, James H. Yeager, Terri A. Ahuruonye, Kari E. Beitel, John
T. Crowson, Lester D. Girdlestone, Monica J. Hayden, Stephen L.
Jones, Gary W. Kirk, Judy W. Nadel, Steven J. Schamberger, Sharon R.
Trodden, Cecilia M. Barela, Gerald L. Blumenthal, Curt L. Boettcher,
Francis E. Danielski, Randolfo E. De Leon, Gary B. Fishbein, Rita L.
Fox, John C. Hudson, Robert Y. Lee, Paul Nagulko, Louis J. Ochoa,
Tiffany N. Smith, Keri L. Spencer, Kim P. Tieu, Isabel M. Tumblin,
Philip B. Windust, Katherine A. Yutzey

                Award for Excellence — Investigation
Marlies T. Gonzalez
   For outstanding investigation of Carnival Corporation for environmental
crimes impacting our national and international waterways.
Ramon Sanchez, Jr.
  For outstanding performance in conducting criminal investigations
impacting highway safety.




                                                                                  a w a r d s   73
                                                       Award for Excellence — Evaluation
                                     Amtrak Assessment Team
                                       For outstanding contributions in monitoring Amtrak and reporting to the
                                     Administration and Congress on Amtrak’s financial status, strategic plans, and
                                     capital needs.
                                     Mark R. Dayton, Stuart A. Metzger, Leila D. Kahn, Christopher T.
                                     McKay, Christena Nielsen, Lauralyn J. Remo, Michael W. Rodgers,
                                     Joshua L. Schank, Vera W. Tam, William H. Wuehler

                                     Transportation Recall Enhancement, Accountability,
                                     and Documentation Act Team
                                        For timely identification of deficiencies that needed to be addressed by the
                                     National Highway Traffic Safety Administration to implement the
                                     Transportation Recall Enhancement, Accountability, and Documentation Act
                                     and improve its ability to timely identify potential defects in vehicles or parts.
                                     Ronald H. Hoogenboom, Madeline M. Chulumovich, Sara J. Ancona,
                                     Wendy M. Harris, Mark A. Stiglitz

                                                     Award for Excellence — Management
                                     Delphi Accounting System Team
                                       For outstanding work supporting development of DOT’s new financial
                                     management system.
                                     John L. Meche, Earl C. Hedges, Leonard F. Meade, Michael S. Ralph,
                                     LaKarla M. Lindsay, Keyanna L. Frazier

                                                 Award for Excellence — Multiple Disciplines
                                     Undercover Tests of Aviation Security Team
                                       For outstanding dedication and contribution to the President’s and
                                     Secretary’s initiatives for improving aviation security.
                                     James H. Diecker, Theodore L. Doherty III, Normalyn Anderson,
                                     Richard C. Appleton, David W. Brown, John T. Crowson, Donald E.
                                     Emery, Kevin R. Gaul, Lester D. Girdlestone, Stephen Gruner, Stephen
                                     L. Jones, Gary W. Kirk, Tristan Linkert, Kevin L. McBride, Joseph B.
                                     McGovern, M. Jeffrey Mortensen, Mark E. Peters, Efferem I. Poynter,
                                     Steven J. Schamberger, Sharon R. Trodden, Bradley D. Wheeler, Cecilia
                                     M. Barela, Josephine E. Bates, Stephen A. Bitter, Gerald L. Blumenthal,
                                     Todd A. Damiani, Gloria J. Echols, Steven E. Erb, Kirk A. Gillett,
                                     Carlton H. Hamilton, John M. Hannon, Doral D. Hill, Leigh R.
                                     Hinson, Brian J. Huckaby, John C. Hudson, Jeanette M. McDonald,
                                     Paul Nagulko, James M. Nelson, Shonnel R. Norris, Richard H. Payne,
                                     Santos Ramirez, Henry Rivas, Rosa L. Scalice, Joshua L. Schank, Joseph
                                     Tschurilow, Isabel M. Tumblin, Jennifer A. Walker, Philip B. Windust




74   Semiannual Report to Congress
                 acronyms
AIG . . . . . . . . . . . . . . . .Assistant Inspector General
AIR–21 . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century
ATOS . . . . . . . . . . . . . .Air Transportation Oversight System
CDL . . . . . . . . . . . . . . .Commercial Driver's License
DCIS . . . . . . . . . . . . . . .Defense Criminal Investigative Service
DHS . . . . . . . . . . . . . . .Department of Homeland Security
DoD . . . . . . . . . . . . . . .Department of Defense
DOT . . . . . . . . . . . . . . .Department of Transportation
EPA . . . . . . . . . . . . . . .Environmental Protection Agency
FAA . . . . . . . . . . . . . . .Federal Aviation Administration
FBI . . . . . . . . . . . . . . . .Federal Bureau of Investigation
FHWA . . . . . . . . . . . . . .Federal Highway Administration
FMCSA . . . . . . . . . . . . .Federal Motor Carrier Safety Administration
FRA . . . . . . . . . . . . . . .Federal Railroad Administration
FTA . . . . . . . . . . . . . . . .Federal Transit Administration
IG . . . . . . . . . . . . . . . . .Inspector General
IRS . . . . . . . . . . . . . . . .Internal Revenue Service
ITOP . . . . . . . . . . . . . . .Information Technology Omnibus Procurement Program
LAAS . . . . . . . . . . . . . .Local Area Augmentation System
MARAD . . . . . . . . . . . . .Maritime Administration
NAFTA . . . . . . . . . . . . .North American Free Trade Act
NASA . . . . . . . . . . . . . .National Aeronautic and Space Administration
NHTSA . . . . . . . . . . . . .National Highway Transportation Safety Administration
OEP . . . . . . . . . . . . . . .Operational Evolution Plan
OIG . . . . . . . . . . . . . . . .Office of Inspector General
OSHA . . . . . . . . . . . . . .Occupational Safety and Health Administration
PCIE . . . . . . . . . . . . . . .President’s Council on Integrity and Efficiency
RSPA . . . . . . . . . . . . . .Research and Special Programs Administration
STARS . . . . . . . . . . . . .Standard Terminal Automation Replacement System
TASC . . . . . . . . . . . . . .Transportation Administrative Service Center
TEA–21 . . . . . . . . . . . . .Transportation Equity Act for the 21st Century
TREAD Act . . . . . . . . . .Transportation Recall Enhancement, Accountability, and
                             Documentation Act of 2000
TSA . . . . . . . . . . . . . . .Transportation Security Administration
USCG . . . . . . . . . . . . . .United States Coast Guard
                                                                                          acronyms   75
76   Semiannual Report to Congress
    U.S. Department of Transportation

       Office of Inspector General
          400 Seventh Street, S.W.
          Washington, DC 20590



OIG website: http://www.oig.dot.gov
